<html>
<title> - OVERSIGHT OF THE DRUG ENFORCEMENT ADMINISTRATION AND THE BUREAU OF ALCOHOL, TOBACCO, FIREARMS, AND EXPLOSIVES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
  OVERSIGHT OF THE DRUG ENFORCEMENT ADMINISTRATION AND THE BUREAU OF 
               ALCOHOL, TOBACCO, FIREARMS, AND EXPLOSIVES

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 4, 2017

                               __________

                            Serial No. 115-9

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
         
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
         
         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
      
      
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-792                 WASHINGTON : 2018      
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001         
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan,
    Wisconsin                          Ranking Member
LAMAR S. SMITH, Texas                JERROLD NADLER, New York
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
STEVE KING, Iowa                     STEVE COHEN, Tennessee
TRENT FRANKS, Arizona                HENRY C. ``HANK'' JOHNSON, Jr.,
LOUIE GOHMERT, Texas                   Georgia
JIM JORDAN, Ohio                     THEODORE E. DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC L. RICHMOND, Louisiana
TREY GOWDY, South Carolina           HAKEEM S. JEFFRIES, New York
RAUL LABRADOR, Idaho                 DAVID N. CICILLINE, Rhode Island
BLAKE FARENTHOLD, Texas              ERIC SWALWELL, California
DOUG COLLINS, Georgia                TED LIEU, California
RON DeSANTIS, Florida                JAMIE RASKIN, Maryland
KEN BUCK, Colorado                   PRAMILA JAYAPAL, Washington
JOHN RATCLIFFE, Texas                BRAD SCHNEIDER, Illinois
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel

                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

                  TREY GOWDY, South Carolina, Chairman
                  LOUIE GOHMERT, Texas, Vice-Chairman
JIM SENSENBRENNER, Jr., Wisconsin    SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   TED DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
JOHN RATCLIFFE, Texas                HAKEEM S. JEFFRIES, New York
MARTHA ROBY, Alabama                 TED LIEU, California
MIKE JOHNSON, Louisiana              JAMIE RASKIN, Maryland

                            C O N T E N T S

                              ----------                              

                             APRIL 4, 2017

                           OPENING STATEMENTS

                                                                   Page
The Honorable Trey Gowdy, South Carolina, Chairman, Subcommittee 
  on Crime, Terrorism, Homeland Security, and Investigations; 
  Committee on the Judiciary.....................................     1
The Honorable Sheila Jackson Lee, Texas, Ranking Member, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations; Committee on the Judiciary    .................     3
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     5
The Honorable John Conyers, Jr., Michigan, Ranking Member, 
  Committee on the Judiciary.....................................     6

                               WITNESSES

Chuck Rosenberg, Active Administrator, Drug Enforcement Agency
    Oral Statement...............................................     8
Thomas Brandon, Acting Director, Bureau of Alcohol, Tobacco, 
  Firearms, and Explosives
    Oral Statement...............................................    10


  OVERSIGHT OF THE DRUG ENFORCEMENT ADMINISTRATION AND THE BUREAU OF 
               ALCOHOL, TOBACCO, FIREARMS, AND EXPLOSIVES

                              ----------                              


                         TUESDAY, APRIL 4, 2017

                        House of Representatives

        Subcommittee on Crime, Terrorism, Homeland Security, and

                             Investigations

                       Committee on the Judiciary

                             Washington, DC

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Trey Gowdy 
[chairman of the subcommittee] presiding.
    Present: Representatives Gowdy, Goodlatte, Chabot, Gohmert, 
Poe, Chaffetz, Ratcliffe, Johnson of Louisiana, Jackson Lee, 
Conyers, Deutch, Richmond, Jeffries, and Lieu.
    Staff Present: Anthony Angeli, Counsel; Jason Cervenak, 
Counsel; Scott Johnson, Clerk; Joe Graupensperger, Minority 
Chief Counsel; Veronica Eligan, Minority Professional Staff 
Member; Regina Milledge-Brown, Minority Crime Detailee; and 
Karis Johnson, Minority Legislative Counsel.
    Mr. Gowdy. Subcommittee on Crime, Terrorism, Homeland 
Security, and Investigations will come to order.
    Without objection, the chair is authorized to declare 
recesses of the subcommittee at any time.
    We welcome everyone to today's hearing. Ms. Jackson Lee is 
on her way. Mr. Conyers is with us. We have a nice group on our 
side, and I know Chairman Goodlatte, this means a lot to him, 
as well. So, we will work the openings in as people come, and I 
will recognize myself for my opening.
    I want to thank you again for being here today. This is our 
second hearing in a series to examine the Justice Department 
and its component agencies to identify areas where we can make 
our justice system both fully respected and fully worthy of 
respect. So, I want to thank both of you, not just for being 
here today, but also for your long, distinguished careers in 
public service, which we will go into in more detail when you 
are introduced.
    As we all know, the Drug Enforcement Administration and the 
Bureau of Alcohol, Tobacco, Firearms, and Explosives play a 
critical role in protecting the safety and security of our 
communities.
    If you will allow me just a brief moment of personal 
indulgence, as former prosecutors like to do from time to time, 
we like to reminisce on the last good job we had, which was 
being a prosecutor. And I can tell you, too, that what you 
remember are the victims and their courage and heroism. And you 
remember the men and women of law enforcement and their 
integrity.
    You forget about the bad rulings. You forget about the jury 
verdicts that did not go your way. You even, after time, forget 
about the defense attorneys. But you do not ever forget the 
women and men that you work with in law enforcement, and 
especially the victims.
    So, Mr. Rosenberg, when I see DEA, of course, I think of 
the Nation's premiere narcotics investigation entity. But I 
really think about the DEA agents whose names may never be 
known and never be called in a public hearing, but do the work.
    I will not call the name of the folks in South Carolina 
because I am going to leave one of them out, but I would be 
very grateful if you could let the women and men who are still 
in DEA from yesterday, and those that are there now, know how 
grateful each of us across both sides of the aisle are for 
their work.
    And Mr. Brandon, same to you. You and I know some ATF 
agents. We both know some of the same ones, and they remain 
some of the fondest memories that I have from that time period 
in my life. If you would let the folks in South Carolina know 
how grateful we are for their continued service, and those who 
once served in South Carolina but have spread out across the 
country, I would be grateful to you for that.
    We have a lot of challenges. In my home State of South 
Carolina, at least 95 people died from heroin in 2015, which is 
almost twice as many as the previous year, and more than 500 
died from abuse of prescription opioids over that same time 
period. Roughly half of these deaths attributed to drug 
overdose in South Carolina involved a synthetic opioid, which 
is almost 100 times more potent than morphine. And not only are 
we seeing an increase in deaths due to drug abuse, but we have 
also seen a spike in violent crime nationwide.
    To be fair, violent crime has been going down for a long 
time. And once it goes down so long, it only has one place to 
go. But I do think that we ought to be mindful of the fact that 
there has been, at least in certain categories, as they keep 
statistics, something of a spike.
    In 2016, violent crime increased in many of our Nation's 
largest cities, which is the second year that metro areas saw 
an increase in homicide, robbery, and aggravated assault. No 
agency is perfect. Congress certainly is not perfect, which may 
represent an understatement of biblical proportions. But it is 
our duty as an oversight body, as flawed as we are, to ensure 
that law enforcement agencies learn from mistakes, use taxpayer 
dollars responsibly and efficiently, and remain committed to 
their core missions of protecting the American people.
    We have a justice system that is looked to by everyone for 
fairness, efficiency, thoroughness, professionalism, public 
safety is, at least in my judgment, the preeminent function of 
government. And as much as it is a subset of national security, 
and at the State and local level, public safety may be tied 
with education as the preeminent function of government. So, it 
is not only incredibly important. It is incredibly important 
how people perceive the system. It could be fair, but not 
perceived that way, and we still have a problem.
    So, I know that both of you feel that way, or you would not 
have devoted your lives to the pursuit of justice.
    Over the course of the next several months, I want to work 
with both of you, not just in public hearings, but also 
privately, to make sure that Congress is doing everything it 
can do to enable you to fulfill your missions and, also, to 
reflect on your missions to make sure that we are pursuing the 
toughest, where necessary, and the smartest, at all times, 
policies we can, whether it is drug overdoses, narcotics 
trafficking, violent crimes, firearms trafficking, any other 
issue that impacts public safety and the well-being of our 
fellow citizens.
    I know that both of you, each of you, and each member of 
this committee wants not just the best, but the most respected 
justice system we can possibly have. And part of that is having 
frank conversations about sentencing laws and declination 
levels; and non-24es, mental health; how it impacts your 
ability to do your job; how we, as a society, are treating 
mental health-related issues.
    You know, I was eating dinner with Tim Scott last night, 
who is the senator from South Carolina, and the person I 
respect most in politics. We have to have a justice system that 
people respect. And we have to be willing to ask tough 
questions. And we have to be willing to acknowledge that 
everyone does not perceive the justice system in precisely the 
same way. But it is the most unifying and equalizing force that 
we have in our culture. The fact that it is represented by a 
blindfolded woman tells us what we need to know.
    So, you have the highest of all callings. And I will say 
this in conclusion: next month, Congress recognizes National 
Police Week. It is in May. This is April; I am not going to 
wait until May. I want to say, as a husband and a father and a 
citizen, how much I appreciate the line of work that you all 
have chosen to go into, and make sure that the women and men 
that work in your agencies know how grateful we are. It will 
not stop us from doing oversight, but it will make us cognizant 
of the challenges that some people have volunteered for to keep 
other people safe.
    And with that, I would recognize the ranking member from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Mr. Chairman. Good morning to 
my colleagues and members. And good morning to the witnesses. 
Forgive me for my slight delay. I was just in a meeting dealing 
with the famine in Africa, sub-Saharan Africa.
    I think you may have heard of that disaster's occurrence, 
and I thank the chairman for his indulgence as we were trying 
to deliberate on various disasters outcome to those individuals 
that are starving. But I join my chairman in acknowledging both 
Mr. Rosenberg and Mr. Brandon, and appreciate, very much, the 
service that the ATF and the DEA gives.
    One of my greatest pleasures, serving for a good number of 
years on the Judiciary Committee, was the many men and women in 
law enforcement, on the Federal level, that I have had to 
encounter, sometimes in tragic circumstances.
    I go back on this committee, Mr. Conyers, which I cannot 
compete with him and his tenure. But we go back to the Waco 
incident. We go back to the issues with DEA, with just enormous 
drug trafficking cartels, when cities seemed to be collapsing. 
And it was the collaboration with local authorities that our 
Federal officers provided, such a great, if I might say, 
friendship, but also being part of solving problems.
    With respect to the DEA, I think our massive, omnibus 
opioid bill, hopefully, will, at least on the treatment side, 
on the intervention side, really be a big boost to your work 
because we always hear our neighbors, such as Mexico, 
suggesting that we are the problem.
    I do not yield to that, but I do know that we need to get 
those who are sick and addicted, so that you can purge these 
evil people who violently perpetrate the business of drugs on 
innocent communities all over the country. And your work 
certainly includes a large part of that.
    With respect to ATF, and I must take a moment to indicate 
that I flew up yesterday, in the backdrop of the killing of 
Constable Chief Greenwood, and I offered my sympathy to him on 
the floor yesterday. And again, I offer it today. And this a 
gentleman that had been a district attorney and decided that he 
loved the law so much that, as he retired from the district 
attorney's office, he would go into being a constable. And I do 
not know if you are familiar with that in other jurisdictions, 
but constables are like sheriffs over certain jurisdictions. 
And he was, in that capacity, a chief deputy constable.
    And there is a long story about all of his work. And he was 
getting out of his car, and it was execution style. So, we know 
that it was purposeful, and it was the illegal use of guns. And 
I hope that we will be able to discuss these issues. I am a 
member of the Congressional Gun Violence Prevention Task Force 
and Policing Strategies Working Group that my chairman of the 
full committee and ranking member of the full committee are 
also members of. And we are looking at a number of issues, but 
I think it is important to emphasize the crucial work of the 
DEA and ATF.
    And, in particular, every day in America, an average of 93 
people die of gun violence, including seven children and teens. 
That amounts to more than 33,000 people dying from gun violence 
in this country every year. And so, I am interested in hearing 
how we are able to enforce laws and certainly, to try and work 
collaboratively on the importance of weeding out, if you will, 
those who would use guns illegally. Those who would traffic 
guns, which contribute to the dangers of drugs even more 
because those who are in heavy drug trafficking, major drug 
trafficking, certainly, are using weapons of choice, which are 
guns.
    I have introduced H.R. 62, the Gun Violence Resources Act, 
which authorizes the hiring of additional 200 ATF agents and 
investigators for enforcement of existing gun laws. I certainly 
do not want to see a budget that diminishes the resources, and 
I think all of us at this table have indicated that we believe 
in law enforcement that is just. And that means that we adhere 
to the principles of no racial profiling. We adhere to the 
principles of ensuring that the case we make against 
individuals is a just case, on the facts. And I believe that, 
in many instances, in most instances, our Federal officers 
abide by that.
    So, we need them to be able to protect the people that are 
really the victims, either of the surge of drugs, large 
cartels, large shipments, as well as individuals who are taking 
up guns just to be violent. We passed, as many of you know, in 
2010, we lowered the crack powder synthesizing disparity from 
100:1 to 18:1. Many local jurisdictions around the Nation are 
assessing penalties on drug use, on individual drug use and 
individual possession, in a way that does not incarcerate.
    So, it is a combination of thinking that is on this 
committee. And we need your insight as we try to balance that 
individual person who is possessing, versus some of the large 
actors and perpetrators that many of you address, whether it is 
gun trafficking, or whether it is, of course, in major 
trafficking.
    Let me finish my point with respect to the DEA, Mr. 
Chairman. Just on a point to indicate that there are new drugs 
on the market, and I will be interested in hearing, Mr. 
Rosenberg, how you are keeping up with those and how each new 
nuance of the artificial drugs play into the Federal 
enforcement, and what we could be helpful in.
    And Mr. Brandon, there will be a series of questions that I 
will ask, as well, with respect to your work and how we can be 
helpful in saving lives.
    Mr. Chairman, I thank you, and I yield back.
    Mr. Gowdy. The gentlelady yields back. The chair would now 
recognize the chairman of the full committee, the gentleman 
from Virginia, Mr. Goodlatte.
    Chairman Goodlatte. Thank you, Mr. Chairman. I appreciate 
your holding this hearing today, and I want to welcome Acting 
Administrator Rosenberg and Acting Director Brandon, and I want 
to thank both of you for your service, and I am happy that you 
are with us today.
    In April of 2015, during the tenure of DEA's former 
administrator, I was very concerned about systemic problems in 
the DEA disciplinary process, which had permeated several 
levels of management. At that time, the inspector general 
testified about serious misconduct by DEA agents, as well as 
their supervisors. In addition, over the past 2 years, the 
inspector general has conducted audits and examinations of 
DEA's confidential source program, the El Paso Intelligence 
Center, and DEA's aviation operations in Afghanistan. There 
were numerous findings of mismanagement of resources and 
significant lapses in oversight.
    I am eager to hear what changes you have made, Mr. 
Rosenberg, to rebuild the American public's trust in the DEA. 
It is vital that the people have trust in Federal law 
enforcement because America's prescription drug and heroine 
epidemic is severe and growing. It effects Americans throughout 
the country and does not discriminate on the basis of 
socioeconomic status.
    In 2015, there were over 52,000 drug overdose deaths in the 
United States. Most than 60 percent of those deaths were 
attributable to prescription opioids or heroine. Compounding 
this epidemic are the importation and distribution of synthetic 
drugs, including several variations of the drug fentanyl. 
Although fentanyl has a medical use in certain situations, 
greedy drug traffickers and their industrial chemists are 
flooding our country with synthetic versions of fentanyl and 
other drugs, sending Americans to emergency rooms and, 
unfortunately, often, to their deaths.
    These issues have, rightfully, gained Congress's attention. 
While Congress has, and is, taking action to combat opioid 
abuse and treat addiction, I would like to hear what tools DEA 
needs in this fight, and what DEA is doing to stop the flow of 
illegal drugs and to prevent the diversion of prescription 
drugs into the illicit market. In that same vein, I would like 
to hear what tools ATF needs to curb the surge in gun violence 
that has plagued our urban communities in recent years.
    We have numerous laws on the books that are there to 
prevent gun violence and punish those who would use a firearm 
illegally; however, it is disheartening that the previous 
administration chose not to enforce those laws. In fact, the 
data show that prosecutions for firearms violations in fiscal 
year 2016 were down 34 percent from fiscal year 2006. This 
trend is simply unacceptable and must be reversed.
    I am a strong believer in the rights guaranteed by the 
Second Amendment. At the same time, I want to ensure that law 
enforcement is pursuing and prosecuting those who illegally 
obtain and use firearms. At a recent meeting with the Attorney 
General, I brought this issue to his attention, and I look 
forward to working with him on it. While we know that no agency 
is without flaws, we cannot ignore those flaws and must work 
with those agencies to improve their performance and 
productivity.
    That is why I look forward to discussing the recent OIG 
reports concerning ATF's use and management of confidential 
informants and ATF's handling of information concerning the 
traffickers of two firearms that were used in the attack in 
Mexico by members of Los Zetas, a drug trafficking 
organization, on Immigration and Customs Enforcement agents 
Victor Avila and Jaime Zapata.
    We look forward to hearing what steps ATF is taking to 
address the issues raised in those reports. Acting 
Administrator Rosenberg and Acting Director Brandon, I thank 
you again for being here and for your continued service. I look 
forward to your testimony, and Mr. Chairman, I yield back.
    Mr. Gowdy. The chairman yields back. The chair will now 
recognize ranking member of the full committee, the gentleman 
from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy. I join in welcoming 
our acting administrator for DEA and our acting director for 
ATF. Welcome, gentlemen. This is a complicated activity that we 
are in.
    This morning, both agencies have difficult missions, at 
least in part because our Nation has differing attitudes about 
what their respective missions should be. It was President 
Nixon, as part of his war on drugs, that established the Drug 
Administration in 1973. And decades later, after billions of 
dollars were spent and policies that led to mass incarceration, 
which I criticize even today, many of our citizens question 
whether we have pursued the right approach.
    As for Alcohol, Tobacco, and Firearms, although the history 
of this agency has led its accumulating responsibility for a 
variety of issues, its role in protecting us from firearms 
violence has been the focus of scrutiny and concern. I have no 
doubt that the questions raised about the missions of these 
agencies have made it difficult for their dedicated agents and 
employees, particularly given the risk many of them undergo on 
a daily basis.
    We must take action to strengthen our firearm laws by 
expanding background checks, by banning assault weapons and 
high-capacity ammunition magazines, and strengthening 
prohibitions against straw purchases.
    We must look at several criticisms that have been made on 
both agencies in recent years. We must have stability and 
management. And I think that is a huge problem. We must have 
clear policies regarding employee misconduct and improve trust 
between these agencies and the public. In raising these issues, 
we do so because we have to improve two very vital Department 
of Justice agencies. We must go after, in the Drug Enforcement 
Agency, the major traffickers and move away from punishing the 
low-level street dealers and addicts with unnecessarily severe, 
mandatory minimum sentences.
    The Office of the Inspector General has issued a report on 
the use of confidential informants that is fairly critical. 
Their report on the review of investigations of Osorio and 
Barba trafficking rings has been mentioned as critical. The New 
York Times article regarding secret bank accounts of ATF needs 
to be discussed today. Inspector General's report on undercover 
storefront operatives and the Turk white paper, all critical. 
And we need to do as much as we can to get behind the attempt 
to not deal with appropriation writers that cater to the gun 
lobby.
    And so, this is a hugely important responsibility, funding, 
through appropriations, to hire personnel and funds for 
accomplishing the mission. And as a strong supporter of gun 
safety and protection and the Second Amendment, I take pleasure 
in welcoming you here, and looking forward to our discussion.
    And I thank the chairman.
    Mr. Gowdy. The gentleman yields back. We have a very 
distinguished panel here today. I am going to begin by swearing 
in our witnesses.
    If you would, please rise and lift your right hand. Do you 
swear the testimony you are about to give will be the truth, 
the whole truth, nothing but the truth, so help you God?
    Let the record reflect the witnesses answered in the 
affirmative. You may take your seat.
    I am going to ask the gentleman from Texas, the former 
United States attorney, Mr. Johnny Ratcliffe, to introduce our 
first witness.
    Mr. Ratcliffe. Thank you, Mr. Chairman. I appreciate the 
opportunity to welcome my friend and former colleague to our 
committee. Chuck Rosenberg, currently the acting administrator 
of the Drug Enforcement Administration, has an incredibly 
distinguished record in Federal law enforcement, including 
service as counsel to former Attorney General of the United 
States, John Ashcroft; Chief of Staff to the FBI director; and 
in a very rare double, was United States attorney not once, but 
twice, in both the southern district of Texas and the eastern 
district of Virginia.
    In dedicating the better part of 25 years to the Department 
of Justice and its component agencies, Administrator Rosenberg 
has served some of the most important law enforcement 
positions, and handled some of the most sensitive matters of 
national security, in both Republican and Democrat 
administrations. He is respected by both parties, on both sides 
of the aisle, for the very simple reason that he is known by 
his actions and by his reputation to be blind to the color of 
the jersey that you are wearing and, instead, always faithful 
to the blindfolded lady holding a set of scales.
    Administrator Rosenberg, it is great to see you, and thanks 
for being here with us today.
    Mr. Rosenberg. Thank you, sir.
    Mr. Gowdy. The gentleman from Texas yields back. We are 
equally happy to have our second witness, as the acting 
director of the Bureau of Alcohol, Tobacco, Firearms, and 
Explosives, Mr. Thomas Brandon.
    After holding leadership roles in law enforcement divisions 
across the country, Mr. Brandon was appointed to lead the ATF 
in April of 2015. Prior to his service in the ATF, Mr. Brandon 
served in the United States Marine Corps. We thank you both for 
being here and your service to our country. Your full opening 
statements are part of the record, and I know the members have 
read them. So, I would ask you to summarize your openings in 5 
minutes. And there are lights that will guide you in that 
direction. And with that, Mr. Rosenberg, we will recognize you.

   STATEMENTS OF CHUCK ROSENBERG, ACTING ADMINISTRATOR, DRUG 
ENFORCEMENT AGENCY; AND THOMAS BRANDON, ACTING DIRECTOR, BUREAU 
         OF ALCOHOL, TOBACCO, FIREARMS, AND EXPLOSIVES.

                  STATEMENT OF CHUCK ROSENBERG

    Mr. Rosenberg. Thank you, Mr. Chairman, and members of the 
committee, and Congressman Ratcliffe for the kind introduction. 
I appreciate it. It is a pleasure to be here on behalf of the 
men and women of the DEA.
    I think you, Mr. Chairman, and Ranking Member Jackson Lee 
said it well. These are wonderful men and women that have 
difficult jobs. They try their hardest to get it right. We are 
not perfect, but we always try to get better. We try to be 
fair. We try to be just. And when we make mistakes, we, as I 
ask my people to do, identify them, admit them, and fix them. 
That is not always an easy thing to do, and it is something we 
need to be better at, but it is something we strive toward.
    Let me just say a few words about the opioid and heroine 
epidemic. You rightly pointed that 52,000 people died last 
year. Actually, the numbers are for 2015, from fatal drug 
overdose. Sometimes, when we use big numbers, it is hard to 
picture what that really is. Let me give you another way, 
perhaps, of thinking about it.
    We all remember the tragic shooting in Orlando at the Pulse 
Nightclub; 49 innocent people were slaughtered by a madman. 
Imagine that happening 3 times a day, once in the morning, once 
in the afternoon, and once in the evening every single day for 
365 days. You do the math on that, and I have. It is roughly 
the number of people who died from a fatal drug overdose in 
2015. These are staggering numbers, and I am not given to 
hyperbole or overstatement. I hope you understand that. But 
what we have is an epidemic, and I think it is unprecedented.
    And so, we are trying to think about this as broadly as we 
can. I think Ms. Jackson Lee points out the importance of 
treatment and prevention; addiction is a disease. We have to do 
our supply-side law enforcement work. I think it is absolutely 
critical, and that is a piece of this, but it is only a piece 
of it. What I have told our special agents in charge around our 
country that I want them to do is to identify the biggest, most 
dangerous, and most violent threats in their jurisdictions and 
mitigate them. It is that simple. Whatever the biggest, most 
dangerous threat is, mitigate it. From there, if we are doing 
that, then we are doing our supply-side law enforcement work, I 
believe, in the right way.
    But there is more. We are also a regulatory agency, and we 
have an important role in the diversion of pharmaceuticals and 
prescription pills. And I think this is critical. We also have 
a demand reduction role.
    From the very first days that I was a Federal prosecutor, 
and I agree with Chairman Gowdy; I do not think I have ever had 
a better job than being a Federal prosecutor. I never thought 
we were going to enforce or prosecute our way out of this mess. 
What we need to do, in some ways, is to change the culture. We 
need to educate, and we need to prevent.
    And one of the ways that we do that at the DEA is community 
outreach. Our demand reduction program is not as big as I would 
like it to be, but in partnership with the FBI, for instance, 
we have produced a video called Chasing the Dragon, which we 
have made available to everybody, free of charge, to talk about 
the dangers of opioid addiction.
    We have partnered with Discovery Education to build a STEM-
based curriculum for middle and high school students, free of 
charge, to teach the science of opioid addiction. And twice a 
year, we sponsor a National Take Back Day, at which citizens 
can take stuff out of their medicine cabinets and return it to 
one of 5,000 sites around the United States, anonymously, free 
of charge, no questions asked. And the purpose of that is to 
break the cycle.
    Believe it or not, four out of five heroin users start on 
prescription pills. And most of those folks get those pills 
from a friend or a relative or a medicine cabinet. And we have 
to break that cycle. And so, supply-side law enforcement is 
crucial. I want to be very clear that we work at the highest 
levels possible. We are looking for that unholy alliance 
between violent street gangs and the cartels that supply them. 
But we also have to do a good job as a regulator, and we have 
to change the culture of drug use and addiction through our 
outreach programs.
    As I said at the outset, Mr. Chairman, it is a great 
privilege to represent the men and women of the DEA. These are 
the folks you want living next door to you. They are 
passionate. They are principled. And they try really, really 
hard to get this stuff right in a difficult and dangerous 
environment. And just having the opportunity to represent them 
is a great honor and privilege.
    Thank you for the opportunity to be here.
    Mr. Gowdy. Thank you, Mr. Rosenberg.
    Mr. Brandon.

                  STATEMENT OF THOMAS BRANDON

    Mr. Brandon. Chairman Gowdy, Ranking Member Jackson Lee, 
and members of the subcommittee, thank you for the opportunity 
to appear before you today.
    The mission of the Bureau of Alcohol, Tobacco, Firearms, 
and Explosives is to protect communities from violent 
criminals, criminal organizations, the illegal use and 
trafficking of firearms, the illegal use and storage of 
explosives, acts of arsons and bombings, acts of terrorism, and 
the illegal diversion of alcohol and tobacco. To deliver on 
such a vital and unique mission, you must have quality 
personnel, and ATF does. Some of our special agents are former 
Navy SEALs, Marine Recon, Army Ranger, and Green Beret. Other 
special agents are former local police officers, deputy 
sheriffs, State troopers, and special agents from other Federal 
law enforcement agencies.
    To balance our team, we have other special agents who are 
former teachers, emergency room nurses, urban planners, 
lawyers, and psychologists. ATF special agents are a 
distinguished group of Americans that lay it on the line every 
day to protect the public and serve their Nation. I could not 
be more proud than to serve with them as an ATF special agent.
    Of course, ATF has other employees that are vital to our 
mission. Our industry operation investigators, many of whom are 
retired law enforcement officers and military service members, 
are vital to detecting the diversion of firearms and explosives 
to the black markets. Our special agents and industry 
operations investigators are supported by an outstanding staff 
of professionals. They include attorneys, engineers, forensic 
scientists, intelligence research specialists, forensic 
auditors, I.T. specialists. These professionals ensure that ATF 
remains at the forefront of the legal, technological, and 
scientific developments, so necessary to be effective in the 
challenging environment of law enforcement it focuses on today.
    When you focus these exceptional employees to work together 
as one ATF, one pure ATF, I believe we bring unique and special 
value to the American taxpayer, namely to go after the trigger-
puller, the firearms trafficker, the arsonist, and the criminal 
bomber. To remember our mission more easily, it is all about 
bang, boom, and burn. One of the areas I hope to highlight 
today is how ATF is utilizing a unique blend of talented and 
dedicated public servants to tackle our mission priority, 
reducing violent firearms crime.
    Over the last 3 years, ATF has established Crime Gun 
Intelligence Centers, or CGICs, in all of our 25 field 
divisions. CGICs synthesize the skill of our special agents, 
our IOIs, our intelligence research specialists, our ballistic 
technicians, our laboratory scientists, and support staff, to 
collect, analyze, and develop crime gun intelligence, creating 
timely and actual leads for the dissemination to our field 
agents and our local, State, Federal, and tribal partners.
    Beyond the talent of our people, CGICs also utilize 
powerful intelligence tools that are unique to ATF. The 
firearms tracing results from our National Tracing Center in 
Martinsburg, West Virginia, and data from the National 
Integrated Ballistic Information Network, known as NIBIN, the 
Nation's only automated ballistic imaging network. NIBIN 
provides critical intelligence and investigative leads through 
the analysis and comparison of ballistic evidence left at crime 
scenes. By comparing the unique marks on the ammunition's 
cartridge case, NIBIN produces correlations that link shooting 
incidences, creating actual leads that aid in the 
identification of the trigger-pullers who menace our community.
    Mr. Chairman and members of the committee, for the last 2 
years, I have had the honor to lead the ATF. It is been the 
highlight of my professional career, and I openly admit that I 
love America. I love the men and women of ATF, and I love our 
mission of public safety and the regulatory mission.
    Thank you for your time, and I look forward to your 
questions.
    Mr. Gowdy. Thank you, Mr. Brandon. The chair will now 
recognize the chairman of the full committee, Mr. Goodlatte, 
for his questions.
    Chairman Goodlatte. Thank you, Mr. Chairman. Mr. Rosenberg, 
let me start with you. Over the past 10 years, the DEA has 
seized more assets than any other law enforcement component of 
the Department of Justice: 80 percent of the total. Recently, 
the DOJ Office of Inspector General released an audit critical 
of DEA's asset seizures and forfeitures. What is the DEA doing 
to implement OIG's recommendations?
    Mr. Rosenberg. All right. I am still working my way through 
the report, but I have a couple of things that I have taken 
away from it, Mr. Goodlatte. One is, as the I.G. said, this 
program is effective and important, but I think we need to do a 
better job of establishing linkages between seizures that we 
make and criminal cases that we prosecute down the road. And 
sometimes, we struggle with that piece of it.
    I do not mean to sound overly defensive, but I want to 
point out one sort of flaw, I think, in the I.G.'s report. A 
lot of cases that they selected do not result in criminal 
enforcement, but there are reasons for that. Sometimes, we will 
have intelligence or, from a wiretap, know that a bad guy is 
going to drive some cash south, having sold their drugs.
    Chairman Goodlatte. Mr. Rosenberg, let me interrupt and 
just say, I do not disagree where you have no one claiming the 
property.
    Mr. Rosenberg. Yes.
    Chairman Goodlatte. But where you do have people claiming 
the property, there needs to be a much more transparent and 
effective and cost-effective way for them to challenge the 
seizure of their assets and get them back if they were 
improperly taken.
    Next, let me ask you about your recently-promulgated rule 
regarding a drug code for marijuana derivatives, derivatives 
such as cannabidiol, and maintaining marijuana, hemp, and other 
derivatives as schedule I substances. Following that, a lawsuit 
was filed in the Ninth Circuit. What is the current status of 
hemp enforcement?
    Mr. Rosenberg. Well, hemp remains a schedule I substance. 
It is derived from the marijuana plant. So, sorry, do you 
have----
    Chairman Goodlatte. Are you looking to harass hemp farmers 
and----
    Mr. Rosenberg. No. No. As long as they abide by section 
7606 of the farm bill, we are not looking to harass those who 
abide by that statute. No, sir.
    Chairman Goodlatte. All right. Well, we are working on 
trying to make it clear that there should be an easier path for 
people with a product that is commercially viable for a lot of 
purposes, should be able to be produced in a more convenient 
way, and more accessible to the market.
    Mr. Rosenberg. And we have worked with your staff, sir, to 
try and work through some of those issues. We will continue to 
do so.
    Chairman Goodlatte. Let me ask you this. I am getting 
reports from people that there are restrictions by the DEA on 
the supply of buprenorphine products, like SUBUTEX and 
Suboxone, that they are being restricted to the same level that 
a pharmacy sold last year. Is that true?
    Mr. Rosenberg. I do not believe so. I will double check, 
but I do not think that is right. I do not think that there are 
shortages, and I do not think----
    Chairman Goodlatte. As you know, the Congress passed, and 
President Obama signed into law, the Carrot Act that promotes 
medication-assisted treatment. And it sounds like the DEA may 
be making it more difficult for people to get it because, 
obviously, if they are being successful in getting people on 
these kinds of treatments, the demand is going to go up. It 
should not be flat like last year, when there is an emphasis 
being made on making sure people have access to things that 
could help them with their addictions.
    Mr. Rosenberg. Well, access is crucial. I do not think 
there is a backlog for data wave dots, at least from our 
perspective.
    Chairman Goodlatte. I have heard of patients having to go 
from pharmacy to pharmacy, spending hours trying to find a 
store with enough stock to fill a legal prescription.
    Mr. Rosenberg. If that is the case, again, happy to work 
with your committee and your staff to address it, sir.
    Chairman Goodlatte. Thank you very much. Let me turn to Mr. 
Brandon. Over the past 10 years, we have witnessed a 
precipitous drop in firearms prosecutions. In fact, during the 
last administration, prosecutions went down over 30 percent in 
this area. Do you have any explanation for this drop?
    Mr. Brandon. Mr. Chairman, thank you for the question. I 
know, in the previous administration, the operative word was 
``impact,'' and that the cases, even though they would be few, 
it should all be impactful. And we complied with that to try to 
focus on the most violent, what we call trigger-pullers, and 
the traffickers, supply, and then firearms.
    Chairman Goodlatte. Let me tell you the problem that I have 
with that. If you look at, I think, any recent year, you are 
going to find that a number of people lie when they fill out 
the instant check form for the NICS system when they purchase a 
firearm. Most years, it is 60, 70,000 people. And most years, 
the number of actual prosecutions is less than 100 out of 60 or 
70,000. I have seen some years which have been 40, 60.
    That means that, if you knowingly go into a gun store and 
you attempt to purchase a firearm by providing false 
information on the form, you know as you go in that the odds of 
your being prosecuted, even if you are caught, and because the 
instant check system, by no means, has all the data in it that 
it would need to detect anybody who has a conviction that 
should prevent them from purchasing a firearm, that the odds 
are less than one in 1,000, even if you are caught, that you 
are going to be prosecuted. Have you had any communications 
with others in the justice department, the FBI, the U.S. 
Attorneys' Offices about why this prosecution rate is so low?
    Mr. Brandon. Mr. Chairman, thank you for the question.
    Chairman Goodlatte. You know, and I would not say, you 
talked about the most serious violations. Here is the problem. 
If we do not send the message that this system is meant to stop 
people from buying firearms who are prohibited by law from 
buying firearms, what is the point of this system? You got to 
prosecute people before they commit these acts, if they are 
purchasing firearms that they are not supposed to be 
purchasing.
    Mr. Brandon. Yes, sir. Just so you know, when we are 
referred on these cases by the FBI, everyone is examined, and 
each U.S. attorney has prosecutorial guidelines, and then we 
will review it against each district to see if the case would 
be acceptable for prosecution. If it is, then it is forwarded 
to the field division that has jurisdiction over that area 
responsibility, and a case will be perfected.
    But to answer your question, we look at all of them, and 
then we go against the U.S. attorney guidelines for 
prosecution. And if the facts and the evidence are something 
that fit within the guidelines, a criminal case is perfected. 
If it does not fall within the guidelines----
    Chairman Goodlatte. Only one in 1,000 is making the cut? 
That just does not seem like a good approach. Mr. Chairman, I 
know I have exceeded my time. I would like to ask Mr. Brandon 
about one other thing, if I may?
    Mr. Gowdy. Of course.
    Chairman Goodlatte. In Associate Deputy Director Turk's 
white paper, he points out that, for over 2 years, 
representatives within the firearms licensing community have 
asked for clarification and/or a decision from ATF regarding 
new Federal firearms license applicants requesting to conduct 
business solely at gun shows.
    The ATF has delayed a decision or guidance due to several 
concerns, including what it means to be, ``engaged in the 
business,'' of selling firearms, and ATF's ability to have 
access to a dealer's records where they may not have routine 
business hours. The ATF has already recognized FFL activities 
via the internet without a classic storefront and is 
considering whether to include gun show-only activities in a 
similar manner.
    He then correctly asserts that the marketplace has changed 
significantly in recent years, and ATF's guidance to FFLs on 
these issues has not kept pace with developments and commerce. 
Classic brick-and-mortar storefronts with an on-hand inventory 
and set, front-door business hours no longer apply, in many 
instances, in today's modern marketplace. What are you doing 
about that?
    Mr. Brandon. Mr. Chairman, thank you for the question. On 
February 17 of this year, we sent a letter out to a private 
request saying that, if the FFL wants to deal primarily at gun 
shows, and as long as it is compliant with State and local law, 
we issued the license. And so, we have showed a sensitivity to 
the industry. If it is solely just to operate at a gun show, 
that would require a statutory change by this committee, I 
guess. We are issuing a license where they are primarily 
selling at gun shows and that they have a place where we can go 
in and inspect the records.
    Chairman Goodlatte. So, in the meantime, what are you doing 
to enforce the law, with regard to entities or individuals that 
only sell at gun shows and are not doing the background check? 
Because they are obviously not in compliance with the law.
    Mr. Brandon. Yes, sir. And I know, Mr. Chairman, that, when 
we met privately, you expressed your concern about that. One of 
the plans is, or what we do is, an education component.
    When ATF industry operation investigators will be at 
certain gun shows, they do not walk up to people; they just 
have a booth, and they educate them to say that, if your 
activity is false within this or repetitive buying or selling 
of firearms principally, you know, for profit, that you would 
need a Federal firearms license. And also, the great men and 
women, the Federal firearms licensing communities, our 
frontline defense, often they will be frustrated because they 
are saying, hey, I am playing by the rules, and this guy over 
here is not.
    Chairman Goodlatte. You bet they are frustrated, and so are 
people who are frustrated, who think that, this way around, 
having to comply with the NICS system is a loophole, and it 
should be closed. Now, not the way some people have advocated, 
but in terms of enforcing the law, which is very clear that, if 
you sell a firearm at a gun show, you are required to do a 
background check, just like anyone else is, unless you meet the 
narrow exceptions of an individual transaction where you are 
not in the business, or you are selling a collection and not 
selling the collection and replenishing it and selling it 
again. So, what is ATF's plan to go make sure that the people 
selling at gun shows are getting in FFL, or if they are not 
getting in FFL, they are not selling at gun shows?
    Mr. Brandon. Mr. Chairman, again, thank you for the 
question. We investigate allegations like this across the 
country. Often, they come from the FFLs that are, like I just 
mentioned previously, complying with the law, and doing things 
correctly. And we will investigate, and if we can perfect a 
criminal case, we will do that and recommend it for prosecution 
to the U.S. Attorney's Office.
    Chairman Goodlatte. Thank you. And thank you, Mr. Chairman, 
for your forbearance.
    Mr. Gowdy. You have any other questions? I have got all the 
time you want. The chair will now recognize the gentlelady from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, and the work you do 
is mounting and important, and questions are such that we all 
need more time. But I am constrained by the time I have, and 
so, let me try to focus on questions that we can get, and I do 
not need answers, but to be instructed as a committee to be as 
helpful as possible.
    First, I want to be clear that I think that the work that 
the DEA and the ATF does is extremely important, and I think 
there should be a balance between treatment and enforcement, 
but I think that we would be completely naive to think that the 
enforcement arm is not important. It would be good to get to 
the point, particularly as it relates to drugs, but that would 
be less important; that we will be diminishing, if you will, 
the users of the product and the suppliers would come down 
automatically, that is not the case.
    So, let me raise questions to both of you, dealing with 
some of the issues that we are concerned about and a number of 
questions that I have. Mr. Rosenberg, have you looked at the 
disparities? Obviously, you are at, more or less, the top end. 
You might give me, when you collaborate with local law 
enforcement, when does DEA do that? And are you seeing 
disparities in the arrests of more African Americans in drug 
use, particularly marijuana, than others? And whites in 
particular? And how would the DEA, in its capacity, the level 
that it is at, deal with that disparity?
    Mr. Rosenberg. At the Federal level?
    Ms. Jackson Lee. Yes.
    Mr. Rosenberg. We represent a very small piece of the 
Federal, I am sorry, of law enforcement efforts in the United 
States; a tiny sliver, if you would.
    Our main interaction with State and local law enforcement 
officers is through their participation as task force officers 
with the DEA. We have about 4,600 DEA special agents, about 
2,700 task force officers that work with us. But their work, 
and if we are doing this right, is not aimed at low level, you 
know, dealers or users. It is saying that, what I described 
earlier, it is that unholy alliance between cartels and violent 
street gangs. So, probably, the best place to go to answer your 
question, which I think is an important one, would be the State 
and local folks.
    Ms. Jackson Lee. Do you have any discussions among your 
team on disparities and the individuals that are arrested for 
drug engagement?
    Mr. Rosenberg. By race? I do not have those numbers, and I 
do not ask for them, and I do not keep them.
    Ms. Jackson Lee. All right. On the OIG report, one of the 
issues of concern was the confidential informants. I just 
wanted to get an answer from you that you view that as serious? 
One of the issues that came up that I would be interested in as 
a lawyer is limited source or limited use, such as, I hate to 
say airline employees, professionals who may be helpful.
    How are you answering that question? That is of great 
concern. You are using some agents or agencies, or your 
different units assess that source differently. How are you 
addressing that question?
    Mr. Rosenberg. It was actually an illuminating report, 
Congresswoman. We have done a couple of things that I think are 
important. So, confidential sources, confidential informants 
are very important to our work, but we have to make sure we are 
careful. So, for instance, as the report pointed out, where we 
were using quasi-government employees, for instance, at places 
like TSA and Amtrak, we have stopped that. We do not do that 
anymore. We now have confidential source guidelines that are 
fully in compliance with A.G. guidelines. We are now doing 90-
day reviews of every single one of our confidential sources. We 
have put in place an awards review board, so we can make sure 
that confidential sources are paid and treated the same way 
across the country.
    Ms. Jackson Lee. My time is running out.
    Mr. Rosenberg. I am happy to come brief you on it.
    Ms. Jackson Lee. I want you to do so. Let me quickly just 
indicate, I think I was in Colombia when the incidents with the 
DEA behavior, and you are handling that, with respect to the 
kind of protocols that need to be followed? I just need----
    Mr. Rosenberg. We have revised our standards of conduct, 
and in fact, we have made a first-time offense for engaging in 
prostitution, even in a place where it is legal, is cause for 
removal.
    Ms. Jackson Lee. Thank you. Let me quickly go to Mr. 
Brandon. And thank you very much, from Mr. Piralter, who was 
very effective at a meeting that we had dealing with gun 
violence. Thank you again.
    Let me try to get you to answer what you think is the 
reason for the proliferation of illegal guns. Let me also take 
note of the fact that, over a period of time, in the Obama 
administration, when people asked what the ATF does 
effectively, 65.4 million gun purchases since Obama took 
office, 91 percent more. That means that you were doing 
65,376,373 background checks. It looks just, to me--what can 
you say about the proliferation of illegal guns? And which 
tools does ATF have to combat gun trafficking, and are they 
helpful? And what is the role that silencers would play in 
enhanced gun violence, if used inappropriately?
    Mr. Brandon. Thank you, ma'am, for the questions. First, on 
the proliferation of gun violence, I have been an agent for the 
government 29-and-one-half years. If bad people want to get a 
hold of guns, they are going to get them. We have seen an 
increase in Federal firearms licensing burglaries, and that 
increased even from last year to this year, from 2015 to 2016, 
a 56 percent increase. A number of guns. Some of the motives 
for those burglaries have been gang-related or related to 
opioids, trying to feed their drug habits and so forth.
    The tools that we have, the comprehensive tracing of 
firearms at the Tracing Center, is a vital technique and a 
tool. And like I mentioned in my statement, NIBIN, the National 
Integrated Ballistics Information Network is something, whether 
you are a Democrat or a Republican, it is an American issue. It 
is an effective tool of linking up shootings that you would 
never detect previously. And when you have that with the 
comprehensive tracing of firearms, the other tool, and along 
with exploiting local police department intelligence, you can 
go after the trigger-pullers who are perpetuating the violence.
    Ms. Jackson Lee. Silencers?
    Mr. Brandon. Silencers, 42 States now, legal. It has 
created a demand for us. It is still covered under the National 
Firearms Act. The industry refers to them as suppressors, and 
it is something that we are dealing with.
    Right now, we have an 8-month backlog. We have applied 
resources of 30 additional people. We have applied overtime 
money to try to fulfill our obligation at ATF to do the 
background and authorize the silencer to be transferred to the 
individual purchasing it.
    Ms. Jackson Lee. My last point. Did you benefit from an 
increase in ATF officers?
    Mr. Brandon. No. No, ma'am.
    Ms. Jackson Lee. You could not benefit from a----
    Mr. Brandon. Oh, could--yeah, no, I would welcome it. The 
pun is intended here: you get a lot of bang for your buck when 
you put an ATF agent on the street, working with the locals.
    Ms. Jackson Lee. Thank you. I yield back. Thank you.
    Mr. Gowdy. The gentlelady yields back. The chair will now 
recognize the gentleman from Texas, Judge Poe.
    Mr. Poe. I thank the chairman. Thank you both for being 
here.
    I want to tap my foot and say amen to what the chairman 
said regarding the work you do in law enforcement. Yesterday 
morning, we had a peace officer, Clint Greenwood, a friend of 
mine, was ambushed and murdered. He had an interesting 
background. He was not just a police officer. He was a 
prosecutor in the District Attorney's Office, a private 
attorney, worked for the sheriff's department, constable's 
office, for over 30 years. And what you do is dangerous, but it 
is appreciated.
    As the chairman mentioned, I was a former judge, and a 
former prosecutor. And I have talked to a lot of former 
prosecutors over the years, and they have all gone on to do 
other things. But I think most of them, if not all, always go 
back to when they were a prosecutor, and those were the best 
years of their careers, so I want to thank you both for that.
    I want to deal specifically, Mr. Rosenberg, with the 
border, with Mexico. I have a map here that I got from the DEA, 
so you are familiar with it. And Mr. Chairman, I would like 
unanimous consent to introduce this into the record.
    Mr. Gowdy. Without objection.
    [The information follows:]
    Mr. Poe. And it shows most of Mexico, except for a few 
places that are controlled by the drug cartels. The Texas 
border has on it the gulf cartels, the Zetas, and the Juarez 
drug cartels, moving drugs into the United States on the Texas-
Mexico border. You mentioned in your testimony that the drug 
cartels work with criminal gangs in the United States. Would a 
fair statement be primarily, one of them is the MS-13 gang?
    Mr. Rosenberg. Certainly, it is one of them.
    Mr. Poe. All right. Do the drug cartels not only bring 
drugs illegally into the United States; they bring anything 
else for money? Including people, human trafficking, and bring 
all of that into the U.S.? And some cases, turn that over to 
the criminal gangs to disperse it into the United States? Is 
that a fair statement or not?
    Mr. Rosenberg. Well, I would say it a little bit 
differently, sir. These cartels are poly-crime and poly-drug 
organizations; they are out to make money. Generally, they stay 
out of the human smuggling business, except that they often do 
two things. They tax human smugglers for the use of their 
corridors or plazas, and sometimes, they will force people who 
are coming across the border to carry their stuff. But by and 
large, they stay out of the human smuggling business, to the 
best of our intelligence.
    Mr. Poe. They subcontract that out to people coming across 
the border, and that would include human trafficking; would it 
not?
    Mr. Rosenberg. It includes all sorts of crimes, sir.
    Mr. Poe. Smuggling and trafficking are two different 
things.
    Mr. Rosenberg. Yes sir.
    Mr. Poe. Would you recommend or not that the Congress 
consider, these drug cartels that have been in operation for 
years in Mexico, making them foreign terrorist organizations?
    Mr. Rosenberg. I am sorry, making them?
    Mr. Poe. Making them foreign terrorist organizations. 
Labeling them as a foreign terrorist organization?
    Mr. Rosenberg. I do not know the ramifications of that. I 
have not been asked that question before. Can I least think 
about it a bit?
    Mr. Poe. Sure.
    Mr. Rosenberg. And give you an answer.
    Mr. Poe. Sure. Just give me your opinion in writing if you 
would.
    Mr. Rosenberg. I will.
    Mr. Poe. Recently, on the Texas-Mexico border, primarily in 
the McClellan sector down by not only the border with Mexico, 
but the Gulf of Mexico, Texas law enforcement has been working 
there in connection with border security, putting a lot of 
boots on the ground, even the National Guard, in some places. 
They got these fast boats that I got to be on. They are quite 
amazing. They can go 70 miles an hour in 17 inches of water, 
armed. Is it your opinion, like many others, that that presence 
on the border for that 100 and 150 miles, the drug cartels quit 
crossing primarily and just moved up river more?
    Mr. Rosenberg. It is a bit of whack-a-mole. When we clamp 
down on one part, they will find another part because the trade 
is so lucrative, which is why, in part, we need to change the 
culture and knock down the demand. But it is a bit of whack-a-
mole, sir.
    Mr. Poe. I agree with you. Stop the demand in the United 
States is the long-term answer. But sir, the crossings into the 
United States by the drug cartels, they are done primarily on 
the border with Mexico.
    Mr. Rosenberg. Primarily.
    Mr. Poe. And if we want to decrease those crossings, we 
need to have a good presence all the way on the border, not 
just in portions of the border, to prevent whack-a mole.
    Mr. Rosenberg. We need good intel; we need good agents; and 
we need a good presence, yes, sir.
    Mr. Poe. A couple more questions. What assets do you need 
on the southern border of Mexico? What are the assets you need?
    Mr. Rosenberg. Well, DEA is actually, down believe it or 
not, about a 1,000 employees over the last 5, 6, 7 years, and 
almost 500 special agents. Now, I do not want anything, sir, at 
the expense of my brothers and sisters in the Department of 
Justice. But we are, and this is a cliche, literally doing more 
with less. We are down quite a bit. And as you look at the 
demographics of our agent population, we have 30 percent of our 
special agents within about 5 years of retirement. So, I do not 
want to call it a crisis. But it is absolutely a challenge.
    Mr. Poe. A crisis, that is what it is. Do you work well 
with the Mexican government? Because you know there is a 
reputation or a rumor out there that it is tense between the 
United States and the Mexican government. They do not work 
well; they give you partial information; sometimes it is wrong. 
Explain that to me. That is my last question.
    Mr. Rosenberg. We work well. It is not perfect; no 
relationship is, but we work well. Those are extraordinarily 
brave men and women in Mexico with whom we partner. We also 
have a large presence of DEA agents and analysists and 
professional staff in Mexico. Seymour, the Mexican Marines, are 
extraordinary. They go above and beyond the call of duty. And 
so, I would describe the relationship as very good and very 
healthy.
    Mr. Poe. Thank you, Mr. Chairman. I now yield back.
    Mr. Gowdy. Judge Poe yields back. The chair will now 
recognize its friend from Florida, Mr. Deutch.
    Mr. Deutch. I thank the chairman. And I thank the ranking 
member for his kindness in allowing me to jump ahead.
    Mr. Rosenberg and Mr. Brandon, thank you both for the work 
that you do for our country, to all of the men and women who 
work in your important organizations for the service and 
security they provide all of us. We appreciate it.
    Mr. Brandon, Ronald Turk is, as I understand it, your 
number two at ATF. And obviously, ATF uses regulations to 
discount violence and ensure public safety, among other things. 
And on January 20, Chief Operating Officer Turk released a 
white paper entitled, ``Options to Reduce or Modify Firearm 
Regulations.'' The white paper begins by recognizing that ATF's 
enforcement and regulatory efforts are focused on reducing 
violence and increasing public safety. We could not agree more, 
and we are grateful for that. And yet it supports and, indeed, 
advocates for reducing a number of gun regulations that I think 
most people would wonder how reducing these regulations would 
make anyone any safer.
    The recommendations consider the removal of silencers from 
the protection of the National Firearms Act, silencers that 
make it much more difficult for law enforcement and bystanders 
to hear gunshots and react quickly. The white paper also 
suggests having further discussions on change in the Anti-
Trafficking Program that require dealers in southwestern States 
to notify ATF about multiple sales of high-powered rifles. And 
the white paper calls for examining permitting gun dealers to 
avoid reporting requirements that assist law enforcement 
investigating trafficking, even after the dealer has sold many 
guns that were later used in crimes. And there are lots of 
other proposals to eliminate gun regulations described in this 
white paper.
    The proposals in this white paper, coming from ATF, are 
greatly concerning to a lot of us. They would weaken the 
authority of ATF; they would undermine the Agency's authority 
to protect public safety. I just would like to know from you, 
first of all, why was this drafted? What was the purpose of 
this white paper?
    Mr. Brandon. Congressman, thank you for the question. These 
were the personal views of Associate Deputy Director Ron Turk, 
my number two. They are not the positions of the agency.
    Mr. Deutch. The white paper does not represent the official 
opinion of ATF. Did anyone ask your number two, the number two 
at ATF, to offer his personal reflections in a white paper in 
this way?
    Mr. Brandon. Associate Deputy Director Turk notified me, it 
was Inauguration Day. As soon as I saw President Trump sworn 
in, I went on the White House website, and I saw that he was 
going to have the head of every Federal agency review its 
regulations. And I sent an email to all of my executive team. 
Ron wrote back to me, ``Hey, I am working on a white paper.'' 
And I said, ``Well, enjoy your weekend. Let's talk on Monday.'' 
Part of the process of leading a team is to have deliberations 
and active conversations about things. But it does not 
necessarily reflect the opinion of the agency. And clearly, 
that paper is not a position of ATF.
    Mr. Deutch. Are any of the concerns raised in the paper 
shared by ATF? And more specifically, is ATF considering 
adopting any of the proposals contained in the white paper?
    Mr. Brandon. You know, these positions go through the 
administration. The administration is new. And when the deputy 
attorney general was confirmed, there will be various 
conversations like we have had, you know, previously, and get 
guidance from the department.
    Mr. Deutch. I do not understand what that means. Does that 
mean that they are being considered? It is simple, right?
    Mr. Brandon. I am trying to be truthful. Like you know we 
would talk, for instance, silencers.
    Mr. Deutch. Yeah.
    Mr. Brandon. The demand that you know 42 States created and 
the backlog, we were always getting Congressional inquiries, 
what are you doing about the backlog? My constituent is 
waiting. And so, we were applying resources, and that is how 
this conversation came up. If silencers went under the Gun 
Control Act and still went through a NICS check, is it still 
public safety being met? And seeing how there has been a change 
within the country candidly at the State level.
    Mr. Deutch. So, again, I just want to make sure I 
understand. So, the President was inaugurated, and this review 
was to commence. And it sounds like he had already started the 
process. Did someone ask him to do it beforehand?
    Mr. Brandon. No, I did not ask him to do it. And being 
honest here, which I would not be anything but, he obviously 
had to be working on it before Inauguration Day.
    Mr. Deutch. I think we would like to find out how that 
started. But just in my last few seconds, in an exchange you 
had with the chairman earlier, the chairman referred to the 
narrow background check exception. And if I understand you 
correctly, you said that ATF conducts the background checks at 
gun shows for those who are in the business of repeatedly 
buying and selling because they are required to have a license.
    The narrow exception for those not in the business, how is 
that defined? What is the definition? How do we know whether 
someone fits under that narrow exception, as the chairman 
referred to it?
    Mr. Brandon. Well, we produce guidance, sir, for what is 
legally required, you know, your activities. So, it is the 
repetitive sale of firearms for profit and livelihood. That 
said, you would fall in and need to be licensed. I just want to 
clear; ATF does not do these NICS checks. They are done by the 
FBI. And the Federal firearms licenses are required to conduct 
them before they transfer a firearm to a non-licensee.
    Mr. Deutch. Last question, Mr. Brandon. Do you think that 
the background checks that are done on people who are in the 
business, acknowledging that is it is unclear how we define 
that, which is something a lot of us think should be done, and 
that the exception is not narrow at all? But, do you think that 
there would be benefit, if we are conducting those background 
checks, for people who buy a gun at a gun store, to have 
everyone who buys a gun at a gun show or online to be subjected 
to the same background checks?
    Mr. Brandon. Yes, sir, that would be a legislative change 
that, you know, I should not be commenting on as the head of an 
agency. But if Congress passed a law, we would enforce it.
    Mr. Deutch. Well, I look forward to that day. Thank you. 
Mr. Chairman, I yield back.
    Mr. Gowdy. The gentleman from Florida yields back. The 
chair will now recognize the gentleman from Texas, former U.S. 
attorney, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. Director Brandon, I 
got the chance to welcome my friend Chuck Rosenberg, and I 
wanted to be sure that I had a chance to welcome you. We had a 
chance to visit for the first time yesterday, but before that 
meeting, I had a conversation with former Acting ATF Director 
Mike Sullivan, who is a close friend and, actually, former 
colleague of Mr. Rosenberg, as well, and someone whose opinion 
I value greatly. He described you to me ``A conscientious, 
hard-working, disciplined, open-minded, just a terrific guy and 
phenomenal human being.'' So, pretty high praise, and from what 
I have, heard well deserved.
    Having gotten those niceties out of the way, I have what 
maybe a difficult question for you to answer, but one that I 
think is important. Because I am from Texas, you would not be 
surprised to hear that there are quite a few hunters and law 
abiding gun owners in my district. And hunters, not just in my 
State, but certainly across the country, are being forced to 
use alternative, non-lead ammunition.
    And the problem, as you know, is that manufactures cannot 
make brass or steel core ammunition for a 306 or a 270 deer 
hunting rifle unless they get a waiver from the Attorney 
General saying that it is primarily intended for sporting 
purposes.
    Now, in a prior hearing when I had the prior Attorney 
General Loretta Lynch, in here, I asked about a number of 
petitions that were pending for those waivers. And at that 
time, unfortunately, none of those had been granted, but I 
think, even more importantly, none of those had even received a 
response. So, the prior administration, for whatever reason, 
did not feel that manufactures were deserving of a response. Is 
there any reason for hope or optimism that this administration 
might respond to this issue?
    Mr. Brandon. Sir, thank you for the question, and also, 
please thank Mr. Sullivan. I think the world of him. He was 
very good for ATF. Regarding armor-piercing ammunition and the 
exemption request that we would have from manufactures, that is 
true. We have not been able to act on them. I believe that, 
when the deputy attorney general is confirmed, that we will be 
able to bring our issues to him. And that we will be able to 
answer the mail to the manufacturers; it is our obligation to 
do so.
    Mr. Ratcliffe. Well, great, I am very glad to hear that and 
eager for that to occur. Administrator Rosenberg, I know you 
will get a bunch of questions today about marijuana and its 
derivatives as schedule I drugs. As former prosecutors, we will 
often refer to marijuana as a gateway drug. The more recent 
statistics seem to lend themselves to the argument that 
prescription pills have become a gateway drug to heroin. You 
talked about four out of five heroin users starting on 
prescription pills. Is that accurate, if I were to refer to it 
as a gateway drug?
    Mr. Rosenberg. Four out of five heroin users begin on 
prescription pills. That is our best information, sir, yes.
    Mr. Ratcliffe. So, in the focus on the opiates and the 
opioid epidemic in this country, there has been a lot of finger 
pointing. I know at least one Senator that has pointed the 
finger of blame at DEA, which, of course, has the power to set 
the limit for how many opioids can be manufactured in the 
United States. So, do you think that is fair or legitimate 
criticism? I want to give you a chance to address that 
publicly.
    Mr. Rosenberg. And I have spoken with that particular 
Senator. I understand the impulse, but I do not think the 
criticism is entirely accurate. Here is why.
    We do set the aggregate production quota. But we are guided 
by statute in how we set that aggregate production quota. So, 
it is the ceiling; manufactures typically do not manufacture to 
that ceiling. They manufacture below it. In partial response to 
that, Mr. Ratcliffe, we have cut the aggregate production quota 
by 25 percent. We are trying to be responsive and thoughtful. 
But as I have tried to explain, and maybe I did not do a very 
good job of it, that aggregate production quota is largely 
driven by statute. We are required to look at last year's 
manufacturing, last year's production, put aside some reserve, 
put aside some inventory. So, it would require DEA to work with 
this Congress to reset how that aggregate production quota is 
determined.
    Mr. Ratcliffe. Thank you. As my time is expiring, and I 
know the chairman is a stickler for time, so I want to get my 
last question in. You have talked a little bit about the DEA's 
role; we all know that DEA is really good at reducing supply. 
That is what law enforcement does: goes after cartels and the 
street gangs that source the supply. And the problem, you 
referred to this earlier, is that we can never enforce or 
prosecute our way out of the problem. So, the other half of the 
equation is reducing demand.
    And so, you talked a little bit about some of the things 
that you have been trying to do. You know, obviously, public 
education is part of the answer. You have talked about STEM and 
the Chasing the Dragon video and the National Prescription Drug 
Take Back Program. Has that been effective? What else are you 
doing, and what, if anything, else can we be doing? What can 
Congress do to support those efforts on that side?
    Mr. Rosenberg. Thank you. And Mr. Chairman, if I may 
respond in full to that, I will take a couple of minutes. Mr. 
Ratcliffe, you are a very good and very highly respected 
Federal prosecutor. And so, I think you know as well as anyone 
that we are not going to prosecute our way out of this mess.
    That said, I think some of our programs make a lot of 
sense. Our National Take Back Program, for instance, sir, last 
year on 2 separate days, we took in, and this is a stunning 
number, 1.6 million pounds of stuff. That people dropped off at 
5,000 sites around the country. Our next National Take Back Day 
is April 29th.
    I want to tell you that we think that about 10 percent of 
the stuff that is dropped off are opioids. But even if it is 
only--because you can drop off anything. You can drop off 
BENGAY; you can drop off an old tennis racket. I mean, we will 
take it. But it is ``only 10 percent,'' that is 160,000 pounds 
of opioids that were returned to the DEA and incinerated in a 
safe and effective way. So, we are going to continue to do 
that.
    You mentioned the Operation Prevention Program, sir, with 
Discovery Education, we have created a STEM-based curricula, 
free of charge, to any middle or high school in the nation. And 
I believe the last number I had is at more than 200,000 
students have viewed that. So, we have to change the culture. 
It is a hard thing to do. This may seem like a silly example, 
but I do not think it is; we have changed the culture in the 
United States with respect to using seatbelts. It took a long 
time, and it took a lot of determination. But I believe that 
has saved lives. We can do it here as well.
    Mr. Ratcliffe. Thank you, and I just want to close by 
joining the chairman in asking that you relay to all of the 
women and men in your agencies, the agents, and the teams that 
support those agents, our gratitude as we do approach Police 
Week coming up. You know, law enforcement officers, much like 
our Armed Forces, they courageously face the dangers that 
others have the luxury of running away from.
    So, please thank your team for the sacrifices they make. I 
know they miss out on a lot. Crime does not sleep, does not 
take a day off, and your team rarely gets a day off as well. 
So, please extend our thanks and gratitude.
    Mr. Rosenberg. We will. Thank you for that, sir.
    Mr. Ratcliffe. I yield back.
    Mr. Gowdy. The gentleman yields back, and he is grateful 
there is not mandatory minimums for exceeding the time.
    With that, we recognize the gentleman from Michigan, Mr. 
Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy. And thank you for 
your testimony. I want to direct this to Mr. Rosenberg, 
Administrator Rosenberg.
    A small percentage of individuals convicted of violating 
Federal laws are high-level suppliers or major traffickers. But 
is not it more constructive to go after the sources of illicit 
drugs to end or slow the flow of drugs into this country? If it 
is more constructive to go after the suppliers, how do you 
explain why most people convicted of violating Federal drug 
laws are, in fact, low-level sellers instead of suppliers or 
major traffickers?
    Mr. Rosenberg. Mr. Conyers, if we are doing our jobs right, 
and we are not perfect, so we do not always get it right, we 
are aiming at that unholy alliance between the cartels and the 
violent street gangs. My goal is to hit that spot and work up. 
It is a very difficult thing to do, as I am sure you 
understand. We should not be prosecuting, you know, folks for 
simple possession or simple users or addicts. That would be, I 
think, a mismanagement.
    Mr. Conyers. But you are.
    Mr. Rosenberg. I think in the main, we are not, sir. My 
understanding, at least from the statistics I have seen, is 
that we are not prosecuting low-level users. We are trying to 
work our way up the chain, again, not always perfectly. But if 
I have that wrong, and I am happy to look at the statistics 
again. I will come back and tell you that I have it wrong.
    Mr. Conyers. Well, I will look at mine again, too, and let 
you know because I think that is key to this whole discussion 
today. Are we able to go after the major traffickers or not? 
And if not, then we have to alter our strategy.
    Mr. Rosenberg. As far as strategy goes, sir, my direction 
to our special agents in charge is very simple. Identify the 
biggest, most difficult, and most dangerous threats in your 
jurisdictions and mitigate that. Now, again hard to do, and we 
do not always get it right. But that is my direction to them. I 
do not want us to be spending our limited resources on simple 
possessors or low-level users, sir.
    Mr. Conyers. Thank you. This, I think, is one of the 
biggest issues that we are confronted with. And I wanted to 
return to Director Brandon. The Police Foundation and the Major 
City Chiefs Association recently published a report making 25 
recommendations detailing how Federal Government could best 
assist State and local law enforcement, positively impact 
violent crime. Now, the report spoke of the critical need for a 
Federal firearms trafficking law. How, in your view, would 
legislation making firearms trafficking a Federal crime help 
ATF and the U.S. attorneys to prevent firearms from getting 
into the hands of criminals?
    Mr. Brandon. Congressman, thank you for the question. And, 
you know, the predecessors to my distinguished Acting Director 
Sullivan, that was the U.S. attorney in Boston, and former 
Director Jones, both weighed in on this, and I see it the way 
they do, that a firearms trafficking statute would be effective 
on having more substantial penalties for those that are 
trafficking in firearms. And the information I learned on it, 
also, is that it has like a kingpin and where, instead of 
getting the paper violations for lying and buying, and we would 
be able to work our way up and target, ultimately, the person 
that is pulling the strings, with all these store purchases, 
and the statute would help that, along with allowing us, as a 
Title III, it could be an investigative technique. It would be 
a predicate to the RICO statute. So, there is a number of 
things. I am not an attorney, but I agree with my former bosses 
that it would be an effective tool in addressing violent gun 
crime across the country.
    Mr. Conyers. It is a big challenge. And if I could get--
well, my time is expired. I will be in touch with you for some 
more discussion, which, if we get it in time, we will include 
it in the record. If not, I will have it for my personal 
edification. But I value you both coming before the committee 
today. Thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Michigan. The chair 
will now recognize the gentleman from Louisiana, Mr. Johnson.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman. I want 
to echo the gratitude of all my colleagues to you good men and 
to your colleagues for all of your important work. We are 
grateful you are at the helm. A couple of quick questions, Mr. 
Rosenberg, about the National Guard Counterdrug Program.
    I am from Louisiana, and Louisiana National Guard 
participates, and from our perspective, the program is shown to 
be a good resource for State and local agencies to fight 
against drug abuse and all these problems. I assume you agree 
it is a valuable program?
    Mr. Rosenberg. Completely agree.
    Mr. Johnson of Louisiana. The problem is that, despite the 
clear benefits that are obvious to us, of the National Guard 
Program, over the past several years, going back to about 2012, 
the National Guard has seen repeated reductions in their 
funding. And that has effected resources and, of course, 
impacted their ability to adequately meet the counterdrug 
objectives. And it includes limiting the operational capacity 
to support the DEA. We talk a lot about budget cuts, but do you 
think the level of success in drug and criminal intervention is 
where it needs to be? And more specifically, do you think there 
is added value to the DEA's efforts when the National Guard is 
able to assist in that way?
    Mr. Rosenberg. I will take the second question first, sir. 
Absolutely. As I travel around the country, and I have paid 98 
office visits so far to the men and women of DEA, in a little 
under 2 years. I meet men and women of the National Guard 
everywhere I go. They are an extraordinary part of who and what 
we are.
    So, the second part is easy. With respect to the first 
part, as I mentioned, we are down more than a 1,000 people over 
the last 5, 6, 7 years, more than 500 special agents. But were 
also down intel analysists, professionals support, diversion 
investigators, and so it just makes our job that much more 
difficult. That is why I love having the National Guard sit 
with us. High-quality men and women, and they do high-quality 
work. If you have more, I will take them.
    Mr. Johnson of Louisiana. We would like to give you more. 
Over the course of the last 17 years, the El Paso Intelligence 
Center, EPIC, has grown from an entity consisting of three law 
enforcement agencies to a center comprised now of over 20 
agencies. And of course, they share a common mission to 
identify threats to the Nation with an emphasis on the 
southwest border. Just from an outsider's perspective looking 
in, can you describe for us what the value is in having 20 
agencies now involved who have the same mission?
    Mr. Rosenberg. Having a bunch of folks sitting together and 
exchanging information quickly and, I hope, seamlessly is 
enormously valuable. Plus, all these men and women reach back 
out to their own home agencies and at the resources that they 
bring to bear. So, when you have a lot of really smart and 
dedicated people sitting in the same room, focused on the same 
problem set, same mission set, that is a good thing for your 
government.
    Mr. Johnson of Louisiana. I was in a conference room a few 
moments ago back here. The Louisiana Sheriffs' Association is 
in town, and we were talking about similar issues with 
coordination among agencies. And we understand how that can 
work. But when you are doing that, you are maximizing 
efficiency and communication, do you experience any 
collaboration issues with so many Federal agencies passing down 
information and intelligence to the local law enforcement?
    Mr. Rosenberg. Oh, sure, there are bumps. And I am sure Tom 
Brandon would tell you the exact same thing; there are bumps. 
But we are better when we are together. And I know that sounds 
cliched. But we have fusion centers around the country; we have 
OCDETF task forces around the country. We sit with our brothers 
and sisters at ATF and FBI and the Marshals Service, around the 
country. Perfect? No. But to borrow Tom's phrase, you get more 
bang for your buck that way. It is a good thing.
    Mr. Johnson of Louisiana. I appreciate it. That is all I 
have. I yield back.
    Mr. Gowdy. The gentleman from Louisiana yields back. The 
chair will now recognize the other gentleman from Louisiana, 
Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman. And thank you all 
for being here. Let me start with something that has come up 
before. I would assume both of your agencies use confidential 
informants?
    Mr. Rosenberg. Yes, sir.
    Mr. Richmond. Do you track your confidential informants and 
any crimes that may have been committed by them? Because we 
learned last year that the FBI does not.
    Mr. Brandon. Congressman, thank you for the question. Yes, 
we do. And as far as when an informant is registered, you know, 
a criminal history is done. And in the semi-annual review, they 
have to run checks to see if they have been involved in any 
criminal activity.
    Mr. Richmond. And I would assume that means that they do 
not get passes for petty crimes for the work they do?
    Mr. Brandon. Any time that the control agent is aware of 
that activity, and it is brought to the supervisor, and 
depending like, say, if they get a parking ticket, or you know, 
something like that, or drunk in public, they should let the 
assistant U.S. attorney know that, if that person is involved 
in a case, of any unlawful activity, and the judgement call is 
made whether to continue the informant on the rolls.
    Mr. Richmond. Mr. Rosenberg.
    Mr. Rosenberg. Yeah, we are also trying to tighten up a bit 
here. Sir, we are not perfect. But we are doing 90-day reviews 
now. We are bringing it to higher level supervisors, something 
we did not do in the past. For instance, if a C.S., 
confidential source, has been inactive for 6 months or more, we 
are going to look to shut that down unless a higher-level 
supervisor finds a reason to keep it open. So, we have a little 
tidying up we need to do. I have created a small section within 
headquarters to essentially audit and inspect how well we are 
doing this in the field.
    Mr. Richmond. Oh, good. Second, and it is more for you, Mr. 
Rosenberg, do you agree with this new treatment type approach: 
addiction, mental health, and real health response to the 
opioid crisis that we are facing?
    Mr. Rosenberg. Absolutely.
    Mr. Richmond. Do you think it would have been more 
appropriate for the response to the crack epidemic in the early 
1980s, or do you think that the crack response was adequate? Or 
knowing what we know now, it should look more like this?
    Mr. Rosenberg. We are better now than we were then. 
Treatment has to be a part of the solution. Addiction is a 
disease. I do not want to lose sight on a supply-side 
enforcement role because I think that is very, very important. 
I think we are better now than we were, you know, 10 years ago 
or 20 years ago or 30 years ago. Hopefully, in 10 years from 
now, we will be better still, sir.
    Mr. Brandon. Congressman?
    Mr. Richmond. Go ahead.
    Mr. Brandon. May I go back on the informant issue with ATF?
    Mr. Richmond. Yes.
    Mr. Brandon. There is this important thing that I forgot to 
mention. We have a 24/7 monitoring of our informants. So, if 
they get arrested, we will get notified through NCIC. And also, 
when we fingerprint them, we run it through AFIS, the Automated 
Fingerprint and Identification System, to make sure their true 
identity, in case they have fraudulent identification. If they 
have been arrested previously, we would know if they are lying 
to us. Sir, I just wanted to supplement with that. And thank 
you, sir.
    Mr. Richmond. Let me, and Mr. Brandon, I am just using it 
as an example; I do not need you to respond. But this committee 
held many hearings and was furious about the Fast and Furious 
Program. At least from my knowledge of DEA and other drug 
agencies, oftentimes, part of a bigger sting is letting 
transactions and other things go through.
    Now, it is a very specific question. In DEA's past, 
present, future, anytime, do you let drugs hit communities in 
order to get the bigger fish?
    Mr. Brandon. We are not supposed to, no, sir.
    Mr. Richmond. Okay. Are you aware of any instances where it 
may happen?
    Mr. Brandon. I will have to check and get back to you on 
that.
    Mr. Richmond. Okay, last question is, what is the status of 
the investigation of the DEA agents in New Orleans that are 
under investigation? And two, do you have a process where you 
go back and review all of the cases that they have made to make 
sure that they were legitimate cases?
    Mr. Brandon. Second question first, if I may, sir. We are 
doing that with our Federal and State and local prosecutor 
partners. So, absolutely. I am more limited to what I can say 
with respect to your first question because it is an ongoing 
investigation. I made management changes in that division. I 
added a second SES supervisor to the New Orleans division 
because we have to get things right there. And we are working 
closely with both the Inspector General at the Department of 
Justice and with the FBI on a criminal investigation. But 
again, I am somewhat limited in what I can say about that 
because it is pending.
    Mr. Richmond. Let me just close with this. I think 
transparency and trust and community participation is vital for 
law enforcement. And I think that it helps our agents; it 
ensures that they know everything that is going on; and it 
makes their job safer. But to have that trust where people in 
certain communities will risk their lives to help officers, I 
think it has to go both ways. And here is--and you do not have 
to respond. Here is my concern from growing up during the crack 
cocaine era, which it was a lot heavier of a hand than the 
opioid response. And the question becomes, is it because of the 
neighborhood or the victims or the sellers?
    Question, second part with the Fast and the Furious, the 
victims were police officers, and that is very, very, tragic. 
The question becomes, do we get drugs back in our 
neighborhoods, which creates more addicts, more crack babies, 
and more other things? Is it because of who the victims are?
    Now, assuming, in the best light, that I am reaching on 
both of those, it does affect your ability to get cooperation 
from certain communities. And we just have to think about how 
we address it, and whatever has happened in the past is it 
happened. But we have to address it because there is that 
festering feeling. And I think that it does not serve law 
enforcement well because you do not get the assistance that you 
need. And it does not serve those communities either. So, with 
that, I look forward to working with both of you all to make 
sure we can close some of those gaps.
    Mr. Gowdy. The gentleman from Louisiana yields back. The 
gentleman from Texas is recognized.
    Mr. Gohmert. Thank you, Mr. Chairman. Mr. Rosenberg, Mr. 
Brandon, thank you for your service. Thanks for being here 
today. You know, for 8 years, the Obama administration was 
continually pushing the supposition that far too many low-
level, non-violent drug offenders were being investigated and 
prosecuted and imprisoned federally. President Obama issued 
1,715 commutations that represents an awful lot of Federal man 
hours, women hours, hours where people had their lives on the 
line to make those arrests and see them through to prosecution. 
He also had a flat 212 outright pardons of drug offenders that 
he claimed were serving lengthy prison terms.
    At one time, I looked, and the figures Jeff Sessions had 
gotten was that I think like nearly three-fourths of those who 
were in Federal prison for simple possession actually were not 
in the United States; they were not U.S. citizens; they were 
not here legally. But the number of possessions, there were not 
that many in Federal prison for possession compared to 
traffickers.
    So, the public has gotten the idea that people in Federal 
prison are these poor guys that maybe they smoked a joint or 
something and ended up doing life without parole. But my 
experience, in my time as a State assistant D.A. and my time as 
a felony judge, the Federal prosecutors, normally, did not take 
small cases. What is your experience, Mr. Rosenberg?
    Mr. Rosenberg. I was a Federal prosecutor, sir, for many 
years. And I just personally did not see cases involving low-
level, first-time offenders. We had neither the resources, nor 
the inclination to do those types of cases.
    Mr. Gohmert. The State did though, right? If it was 
something to prosecute, they would go ahead; you would say, 
``We are waving off; you guys take it?''
    Mr. Rosenberg. It would not be unusual, sir, for a case to 
be split, where we take the higher level, the more serious 
offender.
    Mr. Gohmert. The Federal would take the higher, yeah.
    Mr. Rosenberg. Others go to State prosecutors or are nolle 
prossed. That is entirely possible, too. But from a Federal 
perspective, that was not my experience, that we would do low-
level, first-time offenders.
    Mr. Gohmert. And when we see somebody in Federal prison for 
simple possession, it makes me wonder based on my experience; I 
want to ask your experience. Did you see people offered a plea 
agreement they would only be prosecuted for simple possession 
if they would turn and help them go after the other guy? It 
seems like that was the only time Federal officials wanted to 
go after for simple possession.
    Mr. Rosenberg. That is plausible. Ironically enough, given 
my current job, I was actually not a narcotics prosecutor, when 
I was an assistant U.S. attorney. But there might be reasons 
why you find folks who fit that, you know, description in 
Federal prison. But it has to be the exception and not the 
rule. It has to be, in my experience, an extenuating 
circumstance or somebody who may have plea bargained down to 
something like that. But it would surprise me if there was a 
very large number of that.
    Mr. Gohmert. Well, there were not that many in Federal 
prison for simple possession. Well, we have a President who had 
promised; you may have heard something about it; some call it a 
wall. And some think that is being punitive to Mexico. But it 
seems to me, when you look at Mexico, they have some of the 
hardest working people in the world. The location is absolutely 
perfect for being maybe the greatest trading partner the world 
has ever seen, with two oceans, two continents on either side.
    And, yet, I mean, their economy is in the '60s. It seems 
like they ought to be in the top 10. But the reason I keep 
hearing over and over companies are not moving there more 
quickly than they are is corruption. And corruption is related 
to the drug cartels. The drug cartels are related to the tens 
of billions of dollars in drugs coming across our border.
    If we secured the border with a wall where it is possible 
and really got serious about securing the border, yeah, there 
may be tunnels, but there is new technology that could 
anticipate and determine when they were being tunneled. If we 
really got serious about enforcing that border, what would you 
see, based on your experience, happening to drug availability, 
illegal drug availability, in the United States?
    Mr. Rosenberg. Here is what worries me, sir. As long as 
there remains a significant demand in the United States and a 
significant profit to be made from meeting that demand, the 
traffickers are going to find a way to get this poison into our 
country.
    Mr. Gohmert. So, you do not see, no matter how much we 
protect ourselves from the free flow of narcotics across our 
southern border, it would not affect any supplies here in the 
U.S.?
    Mr. Rosenberg. I am not a border----
    Mr. Gohmert. That is an interesting position by the way.
    Mr. Rosenberg. Border security is important. And I have 
worked in national security, so I appreciate its importance. I 
am talking about a more, sort of a smaller dynamic, which is, 
with a significant demand and a significant profit margin, I 
worry that traffickers are going to find a way: under, around.
    Mr. Gohmert. I understand your worry. I just wanted to get, 
you know, you are under oath, basically, here. It is a crime to 
not tell the truth to a congressional committee. I just want to 
make sure the record is clear your position. We secure the 
border, cut drugs to a trickle coming in from Mexico, you do 
not see it having much effect?
    Mr. Rosenberg. No, I did not say that, sir.
    Mr. Gohmert. You said they will find a way to be here.
    Mr. Rosenberg. I believe they will find a way to be here.
    Mr. Gohmert. So, it would not affect the drug availability?
    Mr. Rosenberg. We could well see price fluctuations. Look, 
it is a good thing to secure our border. No question, it will 
make a difference in the work we do. I just find it difficult 
to imagine, given the profit that is to be made, that we could 
turn it down to zero.
    Mr. Gohmert. My time has expired.
    Mr. Gowdy. The gentleman's time has expired. The gentleman 
from the great State of New York, my friend, Mr. Jefferies, is 
recognized.
    Mr. Jeffries. Thank you, Mr. Chairman.
    Mr. Gohmert. My question, though, is not would it get it to 
zero. Basically, would it materially effect, and I did not get 
an answer to that.
    Mr. Gowdy. The record will reflect the gentlemen's 
question. Now, the gentleman from New York, Mr. Jefferies.
    Mr. Jeffries. I thank the distinguished chairman for 
yielding, for his leadership, as well as the distinguished 
witnesses, Mr. Rosenberg and Mr. Brandon, for your presence and 
for your service to this country and helping to make America as 
safe as it could possibly be.
    I just wanted to turn to Mr. Rosenberg for a few questions. 
With respect to the trajectory of the war on drugs that has 
been underway here in America for the last few decades, would 
it be accurate to say that the war on drugs has been underway 
now for more than 45 years?
    Mr. Rosenberg. Yeah, I do not use that terminology, but it 
is around for a long time.
    Mr. Jeffries. I guess the demarcation point in terms of the 
beginning of the so-called war on drugs was when Richard Nixon 
declared drug abuse in America public enemy number one. He did 
that in 1971; is that correct?
    Mr. Rosenberg. I do not know when he declared it. I know he 
created the DEA in 1973.
    Mr. Jeffries. Now, at the time that the DEA was created in 
1973, there were approximately 350,000 or so people 
incarcerated in America; is that right?
    Mr. Rosenberg. I do not know.
    Mr. Jeffries. Today, there are more than 2.1 million people 
incarcerated in America; is that correct?
    Mr. Rosenberg. I do not know. Is that State and Federal 
sir?
    Mr. Jeffries. That is State and Federal.
    Mr. Rosenberg. I will accept your number. I do not know the 
number.
    Mr. Jeffries. Okay. So, I mean, is that a relevant bit of 
information in terms of the person in charge of such an 
important and prominent organization as the DEA, how many 
Americans are incarcerated in this country?
    Mr. Rosenberg. For any crime or?
    Mr. Jeffries. Any crime.
    Mr. Rosenberg. Yes. It is a relevant bit of information.
    Mr. Jeffries. Okay. And a significant number of those 
individuals, that 2.1 million, are incarcerated as a result of 
drug crimes; is that correct?
    Mr. Rosenberg. Probably a significant portion, yes, sir.
    Mr. Jeffries. I think numbers that I have seen, maybe, 
approximately, 50 percent of those individuals incarcerated 
overall are nonviolent drug crimes in some way, shape, or form. 
Now, the DEA, I think, initially had approximately 1500 special 
agents when the agency was created in 1973; is that right?
    Mr. Rosenberg. I would have to check the number. But it is 
less than we have now.
    Mr. Jeffries. And currently, the number is a little over 
4,000. Is that right?
    Mr. Rosenberg. 4,500, 4,600.
    Mr. Jeffries. And the DEA's initial budget in 1973 was 
about 75 million; is that correct?
    Mr. Rosenberg. I do not know.
    Mr. Jeffries. But the budget today is a little over 2 
billion?
    Mr. Rosenberg. Correct.
    Mr. Jeffries. Oh, yeah. Now, so, I think it is fair to say 
that during the 45-year-plus history of the so-called war on 
drugs, I know it is not a phrase, and I understand why, that 
you would embrace.
    Mr. Rosenberg. I do not think it is very descriptive, which 
is why I do not use it.
    Mr. Jeffries. During that 45-plus-year period, is it fair 
to say that there has been a significant increase in the number 
of people incarcerated? A significant increase in the number of 
agents that the Agency has at its disposal? Although I 
understand that there is a shortfall in your view, and I think 
all of us are concerned about that possibility, but a 
significant increase compared to when the Agency was initially 
enacted and a very significant increase in the amount of yearly 
resources allocated, 75 million at one point in 1973, over $2 
billion.
    But during that same period of time, am I correct that, 
though the nature of the drugs that Americans have used and or 
have been subject to a variety of different crises, heroin, 
methamphetamines, crack cocaine, cocaine, now back to heroin, 
fentanyl, opioid, that has changed, but the crisis has remained 
the same; is that correct?
    Mr. Rosenberg. By crisis, you mean the amount of violence 
that attends it? The number of people dying?
    Mr. Jeffries. All of the above.
    Mr. Rosenberg. Yeah, those are big numbers, and it worries 
me.
    Mr. Jeffries. In fact, you can make the argument, based on 
what you said earlier in terms of the overdosing that took 
place in 2015, the most recent year for which we have figures, 
that, in some ways, the drug crisis in America has not gotten 
better; it has gotten worse. Correct?
    Mr. Rosenberg. Which is why, as I have mentioned, we have 
to also attack the demand side, and we have to educate, and we 
have to treat.
    Mr. Jeffries. So, we have done some things right. We have 
done some things wrong. I think that is fair to say.
    Mr. Rosenberg. I agree with that.
    Mr. Jeffries. Based on the way we were, the way we are 
today, what exactly in your view, as succinctly as possible--my 
time is running out; do you think we can do differently? Based 
on the fact that we have expended a significant amount of 
resources devoted to this problem.
    The nature of the crisis has changed; the intensity of it 
has either remained the same or gotten worse. And we have 
exploded our incarcerated population to a point where we now 
incarcerate more people than any other country in the world. 
And thankfully, there is a bipartisan effort of which the 
chairman and others are involved in to try to deal with this 
mass incarceration phenomena. But from your perspective as a 
top law enforcement professional, what can we do differently?
    Mr. Rosenberg. That is a very good question. I am not sure 
how succinct I can be in answering it because I think it is 
multi-layered. I will say this: I think the mix of stuff that 
we are trying to do, demand reduction, supply reduction, and 
regulation, is the right mix. And we can always debate, you 
know, how much should be in each bucket.
    But while I have seen some bad trajectories and some bad 
news, sir, I have also seen some good news. I have seen 
communities where I think we have made a difference. I have 
talked to families, you know, who have helped us get the 
message to kids about the dangers of opioids and heroin.
    I think our National Take Back Program works. I think we 
should continue down those paths. I think we are thinking about 
treatment and rehabilitation in much more sophisticated and 
helpful ways then we have in the past. I am already probably 
violating your request that I be succinct, but I would be happy 
to come talk to you about it some more if you would have me.
    Mr. Jeffries. Well, I only made that request to indulge the 
chairman and his desire to move this hearing along. But I 
appreciate your willingness, and I appreciate the chairman 
giving you an opportunity to respond.
    Mr. Gowdy. I appreciate the gentleman from New York being 
concerned about the time limit. I wish other members had your 
same sense of fairness. With that, the gentleman from Utah is 
recognized for his 5 minutes.
    Mr. Chaffetz. I assure the chairman that I will be 
punctual. I thank the chairman.
    To both the ATF and DEA, I cannot thank the men and women 
enough who are on the front lines doing the hard, difficult 
work putting their lives in jeopardy on a regular basis, and I 
hope you both carry that back, and they know how much people 
root for them, care for them, and are concerned about them. We 
also, in Congress, have to be concerned about the expenditures 
and making sure that we are giving proper oversight.
    Mr. Rosenberg, I want to talk about the confidential 
informant policy. It has been a source of a scathing review by 
the Inspector General's Office, how that is being executed; 
there is a supplement to that, as well. You have a confidential 
informant policy in place, correct?
    Mr. Rosenberg. Which now meets the Attorney General's 
guidelines, yes, sir.
    Mr. Chaffetz. And we have been trying in the Oversight 
Government Reform Committee, as well as Senator Grassley in the 
Senate Judiciary Committee, to get a copy of this policy. Why 
would you not give it to us?
    Mr. Rosenberg. Well, two things, sir. One is I believe we 
made it available to you and to Senator Grassley's staff in-
camera review if I am not mistaken. In terms of just providing 
it that goes back to Department of Justice policy by which I am 
constrained.
    Mr. Chaffetz. You testified on June 22 of 2016, you said to 
Senator Grassley in a Senate hearing regarding this policy, 
``It has been finalized. It has been approved by the 
department. I am more than happy to provide a copy to this 
committee and to your staff, sir,'' yet you did not do that. 
Who is prohibiting you from giving that copy to Congress? I see 
a huge difference between in-camera review and actually 
providing it to the Congress.
    Mr. Rosenberg. And I respectfully do not see a huge 
difference. I understand your point. We have made it available 
for in-camera review.
    Mr. Chaffetz. And that is true. By the way, that is my 
understanding of it, was well. But I just do not understand 
what you believe what Congress had the right to have and not 
have the right to have. You freely give it to the Inspector 
General, but you will not give it to the United States 
Congress.
    Mr. Rosenberg. And while I do not see a big difference, I 
understand your point. Nevertheless, I am constrained by the 
department.
    Mr. Chaffetz. Who, at the Department of Justice, is telling 
you this?
    Mr. Rosenberg. The name of the person I do not know, sir.
    Mr. Chaffetz. Will you give me that name?
    Mr. Rosenberg. I will ask the Department of Justice if I 
can give you that name. I will give you----
    Mr. Chaffetz. No, no, no. Come on, that is silly season 
here.
    Mr. Rosenberg. No, I do not think it is silly.
    Mr. Chaffetz. I want to know specifically. Because there is 
hundreds of thousands of people involved here. I need a name. 
Can you give that to me by the end of the week?
    Mr. Rosenberg. I will ask if I can provide you----
    Mr. Chaffetz. No, no, I am asking you to give me the name 
of the person who is denying access to this. Here is what I am 
forced to do. We have a hearing next door on the Oversight 
Committee, as well as with both of your deputies.
    Mr. Rosenberg. Yes.
    Mr. Chaffetz. We are issuing a subpoena.
    Mr. Rosenberg. Okay.
    Mr. Chaffetz. And so, I see no choice. We have been trying 
to do this. Senator Grassley has been trying to do this. I have 
been trying to do this. The Department of Justice just does not 
get to hide things from the United States Congress. And there 
is a huge difference between an in-camera review, no notes, 
people looking over your shoulder. Members of Congress have a 
very difficult time accessing that information. And if we are 
going to provide proper access, it seems like we should be able 
to review this, especially in the light of hundreds of millions 
of dollars over the course of a year going out the door. The 
Inspector General giving you all a ``gentlemen's C,'' as he 
called it, to grade how this is done. We have had massive 
problems with people misusing money and assets. And so, I am 
left with no choice. I have issued you a subpoena.
    Mr. Rosenberg. Okay.
    Mr. Chaffetz. We expect you to comply with that subpoena. I 
wish we did not have to do that.
    Mr. Rosenberg. Oh, I understand.
    Mr. Chaffetz. But I want to have a further discussion, and 
I need names as to who is holding us back at the Department of 
Justice.
    Mr. Rosenberg. I can promise you two things. I will look at 
the subpoena carefully, and I will have a further discussion 
with you.
    Mr. Chaffetz. Fair enough. Mr. Chairman, I have plenty of 
time on the clock, but I am happy to yield back.
    Mr. Gowdy. The gentlemen shockingly yields back with 33 
seconds left. I will now recognize myself to go last. 
Gentlemen, 5 minutes is not much time to resolve issues. It is 
barely enough time to raise them. So, I do not know that I will 
have that many questions for you other than raise points that I 
would like you to reflect upon. And then over the course of 
your tenure and as long as I am in Congress, would like to work 
with your respective agencies to see if we can make some 
progress.
    I know both of you have been in the justice system before, 
so you have seen the majesty of a system that exceeds people's 
expectations. There is a reason we have a phrase, ``May justice 
be done, though the heavens fall.'' And it is beautiful and 
majestic to watch a justice system that inspires people.
    On the other side, if you have ever had witnesses that had 
knowledge refuse to cooperate, you have had victims that had no 
expectation whatsoever that the system would work for them. 
Perception is reality. And when you have communities among our 
American family that do not have confidence in the justice 
system, it is all of our problems. And we can debate the 
legitimacy of those perceptions, but the perceptions remain.
    So, my focus on whatever amount of time I have left in this 
job is to try to find that justice system that is not just 
respected, but worthy of respect, aspirationally worthy of 
respect. So, I am going to raise some issues that may be 
unusual for Republicans to raise.
    And I will start with the ratio between cocaine base and 
cocaine powder. I understand it is a rational basis test. I 
understand we just have to have a reason for it, or at least 
they did when the law was initially passed. But at some point, 
Mr. Rosenberg, I would love to sit down with whoever the 
pharmacological experts are at the DEA and understand what it 
is about the pharmacology of baking soda that makes the ratio 
18:1. And if there is a basis for it, then help me understand 
it.
    I get going back to Con law, there is a rational basis 
test. But confidence in the justice system is the most 
compelling national interest we could possibly have. So, I 
would love to work with the DEA and understand why a one-to-one 
ratio is not better. A mandatory minimum, some think they work 
great in violent crime cases; I would be in that camp. Less so 
for, perhaps, for economic or nonviolent crime cases.
    Also, as a former prosecutor, I know mandatory minimums are 
an effective way to get folks to cooperate. But whether or not 
the drug amount levels need to be raised, whether there can be 
some proportionality as we, you know, treat methamphetamine, 
and heroin, and cocaine powder, and cocaine base, and you know, 
marijuana, it takes tractor trailers full to reach a mandatory 
minimum, but not so with other drugs.
    To my friends at ATF 924(e), I have not seen the 
statistics, but when you have someone who has more than one 
felony conviction, and they are in possession of a firearm or 
ammunition, that has a lot more jury appeal.
    Trust me, I get the lack of jury appeal for 922(g) cases; I 
lived it. It is hard to get a jury interested in lying and 
buying or simply being a felon in possession of a gun that you 
are going to use to go squirrel hunting, and you had a 
conviction 20 years ago. There is not a lot of jury appeal. 
Murder cases have jury appeal. But our objective is to prevent 
the murder prosecution. It is to save the life. And I have seen 
it done in South Carolina.
    Bill Nettles was the United States attorney in South 
Carolina. He was appointed by President Obama, so politically, 
we are at opposite ends of the spectrum. But he did great work 
that part of 922(g) that deals with domestic violence. South 
Carolina ranks number one in the Nation in men killing women. 
So, he used the 922(g), that subsection that relates to orders 
of protection and domestic violence convictions; that is a 
misdemeanor, not felony, in South Carolina.
    Certain domestic violence cases are. To Chairman 
Goodlatte's point, it would be great for me to see your 
referrals versus the declarations. If you are getting the cases 
from State locals, and you are writing up a bluebook or 
whatever they call them now, and it is being declined by the 
Assistant United States Attorney, we need to know it. And if 
you are presenting 924(e)(k)s and they are being declined, we 
need to know it. And I am not beating up on prosecutors. I 
actually like them.
    But I need to know, if there has been a decrease in 
firearms prosecutions, it is either the referrals have dried 
up, or we are not adopting them, or you are adopting them, and 
they are being declined. And we need to figure that out. 922(g) 
also includes a subsection for people who had been adjudicated 
``mentally defective.'' Those are the words of the statute. 
Those are not my words.
    So, we will just go with ``mental illness,'' those who had 
been adjudicated mentally ill. That is already against the law 
for someone who has been adjudicated, to possess a firearm or 
ammunition. So, when I look at the statistics for the 
prosecutions, they are anemic. And I do not know if it is 
because the cases are not being referred, if they are not being 
adopted, or if there has been a declination.
    So, one other point: I hear some of my friends mentioned a 
gun show loophole. There may be a background check loophole, 
but there is not a selling a firearm to a prohibited person 
loophole. You could be prosecuted for giving a firearm to a 
prohibited person whether you are an FFL or not. And one way to 
get the attention of folks who do not think that they have to 
do background checks is to see an uptick in prosecutions for 
folks who fail to ask simple questions. ``Are you a convicted 
felon? Have you been adjudicated mentally ill? Are you subject 
to a restraining order or domestic violence case?'' The notion 
that you can sell a firearm to whoever you want to is just not 
accurate. Maybe from a background check, but not from the 
actual transfer of the weapon.
    Last point, Mr. Rosenberg, I know it is hard to prosecute 
doctors. I grew up with one. He is the most popular person in 
the community that I grew up in, and I never would have won the 
district attorney's race had it not been for my father. I get 
how popular doctors are. Also get how impossible it is to get a 
prescription without going to a doctor. And there used to be a 
DEA diversion group that investigated physicians who were 
writing prescriptions outside the course of a legitimate 
medical practice.
    I assume DEA is still doing that. I hear more on the drug 
companies, the distributors, than I do that middle component. 
But getting physicians to understand that you cannot write 
prescriptions for controlled substances on napkins at a bar for 
someone you just met, which is a fact pattern of one of the 
cases I handle, getting that message out may also be part of us 
combatting the opioid epidemic that we have.
    So, I am going to recognize the ranking member for her 
concluding remarks, but I will just tell you this raised a lot 
of issues. You are too busy; you are too busy, but just assign 
someone to come help me. I understand either what is going on 
or maybe we can make improvements, and where they ought to be 
made. I want to adjust this system that people respect. So, 
with that, you are welcome to respond, and then I am going to 
recognize the ranking member from Texas.
    Mr. Rosenberg. Happy to come talk to you myself about those 
issues; they are also very important to me. I heard someone 
recently describe the majesty of our justice system in the 
following way. Actually, I had not heard it before; I thought 
it was really interesting. ``We have courts in which the United 
States government can lose, and we do.'' And, to me, I think 
that is, you know, again we are all human; therefore, we are 
all flawed. None of us are perfect. But the fact that the 
United States Government can lose in its own courts tells you 
that we have a justice system that should be admired and, 
frankly, copied.
    Mr. Brandon. Mr. Chairman, can I speak for a minute?
    Mr. Gowdy. Sure.
    Mr. Brandon I could not agree more with you about a justice 
system worthy of trust, and that is one thing that drilled into 
our new hires, the special agents, and everyone that everybody 
is worthy of trust. And that is in the culture of ATF, and we 
look forward to working with you, and if the committee would 
ever like a demonstration of the National Integrated Ballistics 
Information Network, we just had a van built out, along with a 
trailer, where you can do test fires, so it can respond to 
seams. We briefed the Attorney General on it last Monday, but 
if that is something that you, Mr. Chairman, would like to see, 
we would be happy to bring it up to Capitol Hill.
    Mr. Gowdy. Thank you. And, with that, I will recognize the 
ranking member for any concluding remarks you may have.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much, and 
thank you, particularly, for giving me the opportunity to have 
just a few, brief closing remarks.
    Let me say that I think you are seeing evidence in this 
committee, I hope, of our very strong attempt to work in a 
bipartisan way. So, Mr. Brandon, it would be the chairman and 
the ranking member that may, if we decide, welcome that vehicle 
to come. It is also the chairman and the ranking member, as I 
conclude, that, again, offers her appreciation to the men and 
women who work for you, Mr. Rosenberg, the DEA, and then Mr. 
Brandon for the ATF, and all of the law enforcement officers 
that work throughout the Nation and, particularly, those under 
our jurisdiction, which is a Federal jurisdiction.
    I want to just raise two quick points as it relates to the 
legislation that we have been working on: the Sentences 
Reduction Act, where we took special note, we were dealing with 
drug offenses, nonviolent, and we think we were on the right 
track in reducing sentences. But what came to mind was phenol. 
And I just want a quick answer, Mr. Rosenberg, so that my time 
will not be yielded away, how dangerous and how prolific that 
is, and how important it is that we work together on that.
    Mr. Rosenberg. Very succinctly, incredibly dangerous and 
very important. Amphenol is up to 50 times more potent than 
heroin. Carphenol, which we are beginning to see, is up to 100 
times more potent than phenol. So, extraordinarily dangerous.
    Ms. Jackson Lee. So, we will work with you on that. I would 
like to invite you to my office; we have an epidemic of Kush--I 
do not know if you have heard that word--in our area, in 
Houston, Texas. And I would like to follow up on some questions 
that I have raised on the question of drugs.
    Mr. Rosenberg. I would be delighted.
    Ms. Jackson Lee. Thank you. And I would certainly welcome 
the chairman on joining on some of the meetings that he has 
asked and some of the meetings that I have asked. I just want 
to quickly read into the record one of the responsibilities of 
the ATF, and that is to deal with gang violence and violent 
actions as one of your works. Would you please--and I ask 
unanimous consent. Let me just read it specifically; I am 
sorry. It was just ``to reduce risk to public safety caused by 
criminal organizations and gangs.''
    I think that it still one of your responsibilities. I want 
to put into the record, and I ask unanimous consent, the Gang 
Resistance Education Training Program, which I discussed this 
weekend, Mr. Chairman.
    Mr. Gowdy. Without objection.
    [The information follows:]
    Ms. Jackson Lee. I would also like to offer my sympathy, 
but also put into the record the headline ``Purview shaken over 
the deaths of two students over the weekend, ages 21 and 20, 
not far away from being students in middle school and 
elementary.'' Would you just quickly say how important--and can 
we expand the great program--how important you have seen it, 
and can we expand it?
    Mr. Brandon. Yes, ma'am. That was the special agent in 
charge in Detroit and was an advocate for Gang Resistance 
Education and Training program, was started in 1991 by the 
Phoenix P.D. and ATF, and it trains officers, primarily, but 
also Federal agents, to go into the middle school classes. They 
have a curriculum, and it is really to train them on 
controlling their emotion, impulse control. I was at Detroit 
Homicide when an 18-year-old kid pulled the trigger over a beef 
over a female, and he ruined his life, and I was friends with a 
homicide detective that was a task force officer with us.
    And it was, for lack of a better word, learn how to hit the 
``pause'' button, so you do not do something that you ruins 
your life; you ruin another person's life. And I believe there 
were studies to validate the effectiveness of GREAT, and every 
year, the kids that would successfully go through the program 
would be treated to a Detroit Tiger game, a great game, and 
they would have someone of influence to talk to them and to 
give them a congratulatory speech on doing that. And I am a fan 
on preventing, and then I am a fan on going after the trigger-
pullers, and I think, like Chuck Rosenberg said, and as all of 
you know, you got to address it from both sides. And GREAT does 
that.
    Ms. Jackson Lee. I thank you very much, Mr. Chairman. I 
think there are many ways that we can work together on really 
making the criminal justice system work for everyone. Both for 
those who are, unfortunately, victims on the enforcement side, 
but also on the justice side as well and the prevention side, 
which I think is crucial to, how shall I say, moving America 
forward. And with that, Mr. Chairman, I yield back. Thank you 
so very much.
    Mr. Gowdy. Yes, ma'am. This concludes today's hearing. I 
want to thank both of our witnesses again.
    Without objection, all members have 5 legislative days to 
submit additional questions for the witnesses or additional 
material for the record. The last thing I will ask you to do is 
the first thing I asked you to do: make sure the men and women 
of your respective agencies, not just the agents, 
administrative folks, folks that run background checks, all of 
them, know how grateful we are for their service.
    With that, we are adjourned.
    [Whereupon, at 12:17 p.m., the subcommittee was adjourned.]

                                  <all>
</pre></body></html>
